<html>
<title> - EARLY CHILDHOOD EDUCATION: IMPROVEMENT THROUGH INTEGRATION</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





      EARLY CHILDHOOD EDUCATION: IMPROVEMENT THROUGH INTEGRATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EDUCATION REFORM

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             April 21, 2005

                               __________

                            Serial No. 109-9

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-780                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EDUCATION REFORM

                 MICHAEL N. CASTLE, Delaware, Chairman

Tom Osborne, Nebraska, Vice          Lynn C. Woolsey, California
    Chairman                         Danny K. Davis, Illinois
Mark E. Souder, Indiana              Raul M. Grijalva, Arizona
Vernon J. Ehlers, Michigan           Robert E. Andrews, New Jersey
Judy Biggert, Illinois               Robert C. ``Bobby'' Scott, 
Todd Russell Platts, Pennsylvania        Virginia
Ric Keller, Florida                  Ruben Hinojosa, Texas
Joe Wilson, South Carolina           Ron Kind, Wisconsin
Marilyn N. Musgrave, Colorado        Dennis J. Kucinich, Ohio
Bobby Jindal, Louisiana              Susan A. Davis, California
John R. ``Randy'' Kuhl, Jr., New     George Miller, California, ex 
    York                                 officio
John A. Boehner, Ohio, ex officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 21, 2005...................................     1

Statement of Members:
    Castle, Hon. Michael N., Chairman, Subcommittee on Education 
      Reform, Committee on Education and the Workforce...........     2
        Prepared statement of....................................     3
    Woolsey, Hon. Lynn C., Ranking Member, Subcommittee on 
      Education Reform, Committee on Education and the Workforce.     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Alexander, Jeffrey, Assistant Head Start Director, Big Five 
      Community Services, Inc., Durant, OK.......................    11
        Prepared statement of....................................    13
    Barnett, Dr. W. Steven, Director, National Institute for 
      Early Education Research, New Brunswick, NJ................    15
        Prepared statement of....................................    18
    Blank, Helen, Director of Leadership and Public Policy, 
      National Women's Law Center, Washington, DC................    27
        Prepared statement of....................................    29
    Clifford, Dr. Richard M., Senior Scientist, Frank Porter 
      Graham Child Development Institute, Chapel Hill, NC........    21
        Prepared statement of....................................    24
    Moore, Marsha H., Commissioner, Georgia Department of Early 
      Care and Learning, Atlanta, GA.............................     7
        Prepared statement of....................................     9


 
       EARLY CHILDHOOD EDUCATION: IMPROVEMENT THROUGH INTEGRATION

                              ----------                              


                        Thursday, April 21, 2005

                     U.S. House of Representatives

                    Subcommittee on Education Reform

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 2175. Rayburn House Office Building, Hon. Mike Castle 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Castle, Osborne, Ehlers, Kuhl, 
Woolsey, Hinojosa, Kind, Kucinich, and Davis of California.
    Ex officio present: Representative Boehner.
    Also present: Representative Holt.
    Staff present: Amanda Farris, Professional Staff Member; 
Jessica Gross, Legislative Assistant; Kate Houston, 
Professional Staff Member; Alexa Marrero, Press Secretary; 
Deborah Emerson Samantar, Committee Clerk/Intern Coordinator, 
Rich Stombres, Assistant Director of Education and Human 
Resources Policy; Ruth Friedman, Minority Legislative 
Associate/Education; Lloyd Horwich, Minority Legislative 
Associate/Education; Ricardo Martinez, Minority Legislative 
Associate/Education; Joe Novotny, Minority Legislative 
Assistant/Education; and Mark Zuckerman, Minority General 
Counsel.
    Chairman Castle. The Subcommittee on Education Reform of 
the Committee of Education and the Workforce will come to 
order.
    We are meeting today to hear testimony on ``Early Childhood 
Education: Improvement through Integration.'' Under Committee 
Rule 12(b), opening statements are limited to the Chairman and 
the Ranking Minority Member of the Subcommittee, Ms. Woolsey. 
Therefore, if other Members have statements, they may be 
included in the hearing record. With that, I ask unanimous 
consent for the hearing record to remain open 14 days to allow 
Member statements and other extraneous material referenced 
during the hearing to be submitted in the official hearing 
record. Without objection, so ordered.

STATEMENT OF HON. MICHAEL N. CASTLE, CHAIRMAN, SUBCOMMITTEE ON 
   EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Chairman Castle. Good morning to our witnesses who are here 
today and to everybody in the audience, and thank you for 
joining us today for a hearing on ``Early Childhood Education: 
Improvement through Integration.'' As Congress prepares to 
strengthen and reauthorize the Head Start program, one of our 
chief goals is to remove barriers that may impede the 
successful integration of Head Start with other programs that 
serve to prepare disadvantaged children for success.
    When Head Start was created in 1965, it represented the 
first coordinated effort to target early childhood health, 
developmental, and educational services to disadvantaged 
children and families. For many years, Head Start was the only 
opportunity many of these children had to get the head start 
they needed to succeed in school and in their future.
    Head Start is a successful program that has made great 
strides in preparing disadvantaged three and 4-year-olds for 
school. Head Start programs provide comprehensive services, 
such as nutrition, dental screening, parental involvement, and, 
importantly, the school readiness skills that can help prepare 
children for kindergarten.
    We know that a readiness gap persists between Head Start 
children and their peers, and that is something we intend to 
address during the reauthorization. However, the larger goals 
of the program are sound, and we intend to build upon that 
foundation to make Head Start stronger.
    The topic of today's hearing is how early childhood 
programs can be improved through integration. I mentioned 
earlier that when Head Start was created in 1965, it was 
largely the only early childhood program available. That is not 
the case today. About 40 states have established some form of 
early childhood education because states recognize that these 
services can make a real difference in preparing children for a 
successful future. Various local initiatives have also been 
launched and today disadvantaged children and families have 
access to programs and services from a wide range of sources.
    Some of these programs rival or exceed the quality of Head 
Start, while others fall short. Head Start is no longer the 
only option for early childhood education and we must ensure 
that all children are receiving the same quality education. In 
this new era, Head Start should be working toward integrating 
services with other school readiness programs and not competing 
against them.
    Last week, we heard from some successful Head Start 
programs that have found ways to integrate Head Start with 
other early childhood programs. Today, we are going to look at 
that concept more closely. We are going to ask what barriers 
exist that prevent effective coordination and integration among 
programs, and what steps can be taken at the Federal level to 
allow Head Start to make the most of other early childhood 
programs that share the same goals.
    In the last Congress, this Committee passed a bill that 
sought to adjust this need. But many of my colleagues and I 
acknowledge that there were concerns about our approach. For 
this reason, Chairman Boehner and I have pledged to solicit 
additional input and consider alternative strategies for 
adjusting the inefficiencies, gaps, and overlap in services and 
inconsistent quality that often results when bifurcated systems 
exist.
    In short, we remain committed to the goal of improved 
program coordination but are open to alternate routes to that 
goal so long as they are effective.
    Early childhood education is essential to overcoming the 
school readiness gap and preparing disadvantaged children for 
success. We believe Head Start could be made stronger for the 
children and families it serves if we allow Head Start to work 
in conjunction with other effective programs. Today, I hope we 
learn more about how this can become reality.
    I thank the witnesses for joining us today, and I look 
forward to your testimony. I will now yield to the gentlelady 
from California, the Ranking Minority Member of this Committee, 
Representative Woolsey.
    [The prepared statement of Chairman Castle follows:]

    Statement of Hon. Michael N. Castle, Chairman, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Good morning, and thank you for joining us today for a hearing on 
``Early Childhood Education: Improvement Through Integration.'' As 
Congress prepares to strengthen and reauthorize the Head Start program, 
one of our chief goals is to remove barriers that may impede the 
successful integration of Head Start with other programs that serve to 
prepare disadvantaged children for success.
    When Head Start was created in 1965, it represented the first 
coordinated effort to target early childhood health, developmental, and 
educational services to disadvantaged children and families. For many 
years, Head Start was the only opportunity many of these children had 
to get the head start they needed to succeed in school and in their 
future.
    Head Start is a successful program that has made great strides in 
preparing disadvantaged three and four-year olds for school. Head Start 
programs provide comprehensive services such as nutrition, dental 
screenings, parental involvement, and importantly, the school readiness 
skills that can help prepare children for kindergarten.
    We know that a readiness gap persists between Head Start children 
and their peers, and that's something we intend to address during the 
reauthorization. However, the larger goals of the program are sound, 
and we intend to build upon that foundation and make Head Start 
stronger.
    The topic of today's hearing is how early childhood programs can be 
improved through integration. I mentioned earlier that when Head Start 
was created in 1965, it was largely the only early childhood program 
available. That's not the case today.
    About 40 states have established some form of early childhood 
education, because states recognize that these services can make a real 
difference in preparing children for a successful future. Various local 
initiatives have also been launched, and today, disadvantaged children 
and families have access to programs and services from a wide range of 
sources. Some of these programs rival or exceed the quality of Head 
Start, while others fall short. Head Start is no longer the only option 
for early childhood education, and we must ensure that all children are 
receiving the same quality education. In this new era, Head Start 
should be working towards integrating services with other school 
readiness programs, not competing against them.
    Last week, we heard from some successful Head Start programs that 
have found ways to integrate Head Start with other early childhood 
programs. Today, we're going to look at that concept more closely. 
We're going to ask what barriers exist that prevent effective 
coordination and integration among programs, and what steps can be 
taken at the federal level to allow Head Start to make the most of 
other early childhood programs that share the same goals.
    In the last Congress, this Committee passed a bill that sought to 
address this need, but many of my colleagues and I acknowledge that 
there were concerns about our approach. For this reason, Chairman 
Boehner and I have pledged to solicit additional input and consider 
alternative strategies for addressing the inefficiencies, gaps and 
overlap in services, and inconsistent quality that often results when 
bifurcated systems exist. In short, we remain committed to the goal of 
improved program coordination, but are open to alternate routes to that 
goal so long as they are effective.
    Early childhood education is essential to overcoming the school 
readiness gap and preparing disadvantaged children for success. We 
believe Head Start can be made stronger for the children and families 
it serves if we allow Head Start to work in conjunction with other 
effective programs. Today, I hope we learn more about how that can 
become a reality.
    I thank the witnesses for joining us today, and I look forward to 
hearing your testimony. I will now yield to the gentle lady from 
California, the ranking minority member of this subcommittee, Rep. 
Woolsey.
                                 ______
                                 

STATEMENT OF HON. LYNN C. WOOLSEY, RANKING MEMBER, SUBCOMMITTEE 
 ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE

    Ms. Woolsey. Thank you, Mr. Chairman, for holding this 
hearing. In the past, October has always been Head Start 
Awareness Month, but given that this is the third Head Start 
hearing we have had in 4 weeks, I think we might be trying to 
change the month to April.
    Chairman Castle. Is that a motion?
    Ms. Woolsey. Well, today's topic is so critical and it is 
part of what we know to be so important, which is Head Start. 
And coordination and collaboration among Head Start and other 
early childhood programs is essential to our children receiving 
the services they need in order to succeed in school and in 
life.
    Because I strongly support both Head Start and universal 
preschool, I strongly support Head Start's coordination and 
collaboration requirements. For example, Head Start grantees 
must coordinate with their local education agencies to ensure a 
smooth transition between Head Start and kindergarten. Head 
Start also funds Head Start state collaboration offices in each 
state. These offices are successfully facilitating coordination 
of Head Start services with other Federal and state services to 
create an early childhood care and education system. They are 
required to ensure that Head Start services are coordinated 
with health care, welfare, childcare, education, and community 
service activities, family literacy services, services for 
children with disabilities and services for homeless children, 
not a small task. And I am pleased that a number of our witness 
will testify today on how well these requirements are being 
implemented in the field.
    I am also interested in hearing from all of you on how we 
could make coordination and collaboration work even better. But 
it is critical that we not allow flexibility to coordinate and 
collaborate to be a proxy for waiving or lowering standards. 
And because I am as straightforward as I am, we do not need 
this to lead us into block granting.
    Head Start has served for our most vulnerable children and 
families so well for 40 years because the standards have 
remained high and they have remained comprehensive. We would do 
these children and their families a great disservice by moving 
away from those high standards. And we know that the great 
majority of Head Start programs are successful now without 
block granting and would not gain but lose under a block 
granting environment.
    And, it is important to remember that another way that we 
can improve on our early childhood education system is to 
increase Federal support for a proven program, such as Head 
Start. In other words, if we are going to talk it, let's 
support it and let's make sure that we give the Head Start 
program what they need because in recent years we have not done 
a good job of that. We have barely kept up with inflation even 
though we only serve about half of the eligible 4-year-olds.
    At other hearings we have talked about the need for 
accountability in Head Start. I think we need to hold ourselves 
accountable as well.
    So, again, Mr. Chairman, I hope that we will be able to 
move forward together to reauthorize Head Start, and I look 
forward to hearing from our panel of experts. Thank you very 
much for coming.
    [The prepared statement of Ms. Woolsey follows:]

  Statement of Hon. Lynn C. Woolsey, Ranking Member, Subcommittee on 
       Education Reform, Committee on Education and the Workforce

    Thank you, Mr. Chairman, for holding this hearing.
    In the past, October always has been Head Start Awareness Month, 
but given that this is the third Head Start hearing we've had in four 
weeks, I think you might be trying to change that to April.
    Today's topic is a critical one.
    Coordination and collaboration among Head Start and other early 
childhood programs is essential to our children receiving the services 
they need to help them succeed in school and in life.
    Because I strongly support both Head Start and universal preschool, 
I strongly support Head Start's coordination and collaboration 
requirements.
    For example, Head Start grantees must coordinate with their local 
educational agency to ensure a smooth transition between Head Start and 
kindergarten.
    Head Start also funds Head Start-State Collaboration Offices in 
each state.
    These offices facilitate coordination of Head Start services with 
other federal and state services to create an early childhood care and 
education system.
    They are required to ensure that Head Start services are 
coordinated with health care, welfare, child care, education, and 
community service activities, family literacy services, services for 
children with disabilities, and services for homeless children.
    So, I am very pleased that a number of our witnesses will testify 
to how well these requirements are being implemented in the field.
    I also am interested in hearing how we can make coordination and 
collaboration work even better.
    But, it is critical that we not allow flexibility to coordinate and 
collaborate to be a proxy for waiving or lowering standards.
    Head Start has served our most vulnerable children and families so 
well for 40 years because its standards have remained both high and 
comprehensive.
    We would do those children and families a great disservice by 
moving away from those standards.
    It also is important to remember that another way that we can 
improve our early childhood education system is to increase federal 
support for proven programs such as Head Start.
    In recent years, Congress has not done a good job of that. We have 
barely kept up with inflation, even though we only serve about half of 
the eligible four-year olds.
    At other hearings, we have talked about the need for accountability 
in Head Start, and I think we need to hold ourselves accountable as 
well.
    Again, Mr. Chairman, I hope that we will be able to move forward 
together to reauthorize Head Start, and I look forward to hearing from 
our panel.
    Thank you.
                                 ______
                                 
    Chairman Castle. Thank you, Ms. Woolsey. We do have a very 
distinguished panel of witnesses. And I am going to read the 
introductions of each of you and then we will turn to you for 
your statements. We will start, obviously, and go across the 
line.
    Marsha H. Moore is the commissioner of Georgia's Department 
of Early Care and Learning, known as Bright Start. Ms. Moore 
has worked 23 years in state government posts, including 
positions with the Department of Family and Children Services 
in the Department of Human Resources. As commissioner, Ms. 
Moore oversees an annual budget of over $400 million and 
manages state programs to improve the quality of Georgia's 
early care and education system. She has worked closely with 
Governors' offices and legislators in other states, sharing 
Georgia's experience in implementing the largest pre-
kindergarten program in the country. Ms. Moore received her 
Master of Public Administration degree from North Carolina 
College and State University.
    Jeffrey Alexander is the assistant head start director for 
the Big Five Community Services, Inc. located in Durant, 
Oklahoma and serves as president of the Oklahoma Head Start 
Association. Mr. Alexander has worked to integrate classrooms 
for Head Start in Oklahoma's pre-kindergarten program, which is 
one of the largest voluntary universal school readiness 
programs in the United States. He is a member of the Durant 
Literacy Council board of directors and the Durant Jaycees. Mr. 
Alexander earned his bachelor of science degree in accounting 
and business administration from Southeastern Oklahoma State 
University. And has a master's degree in business from the 
Oklahoma City University.
    Dr. W. Steven Barnett is a professor of education and 
economics policy and director of the National Institute for 
Early Education Research at Rutgers University. He is an 
authority on the topic of early education. His work includes 
research on state pre-kindergarten programs, the educational 
opportunities and experiences of young children in low-income 
urban areas, the long-term effects of preschool programs on 
children's learning and development, and benefit cost analysis 
of preschool programs and their long-term effects. Dr. Barnett 
earned his Ph.D. in economics at the University of Michigan.
    And Dr. Richard M. Clifford is a senior scientist with the 
Frank Porter Graham Child Development Institute at the 
University of North Carolina at Chapel Hill and a leading 
expert in early childhood policy. He is nationally known for 
his work in assessing the quality of early educational 
settings, pre-kindergarten program design and functioning, 
service delivery and program financing and personnel 
preparation. Dr. Clifford is the co-director of the National 
Pre-Kindergarten Center and served as principal investigator of 
a large-scale study of pre-kindergarten programs in six states 
supported by the U.S. Department of Education.
    Helen Blank is the director of Leadership and Public Policy 
at the National Women's Law Center where she works to expand 
support for early care and educational experiences for children 
from low-income families. Previously, Ms. Blank served 24 years 
as the director of the Childcare and Development Division at 
the Children's Defense Fund. Ms. Blank has developed and led 
multiple campaigns to protect and expand public investment in 
child welfare programs, including Childcare Now, an ongoing 
initiative to focus attention on early care and education. Ms. 
Blank has authored and co-authored numerous articles and 
studies on child care policies, including Working Together for 
Children, Head Start, and Childcare Partnerships, Seeds of 
Success, pre-kindergarten initiatives, and state developments 
in childcare and early education.
    Before the witnesses begin, I would like to remind the 
Members that we will be asking questions after the entire panel 
has testified. In addition, Committee Rule 2 imposes a 5-minute 
limit on all questions.
    I think all of you understand the light system, which you 
have in front of you there. Green for 4 minutes, yellow for a 
minute, and when you see the red, start winding down or wind 
down.
    And with that, we welcome all of you and we look forward to 
your testimony. We will just go right down the row, and we will 
start with Ms. Moore.
    Can you turn on your microphone? I think you have to hit a 
button there in the front and maybe get it a little bit nearer 
to you, too, so everybody in the room can hear. Thanks so much. 
It is funny, I have mine off and it is still on. There is 
something wrong with the system right now.
    [Recess.]
    Chairman Castle. We are back to the beginning, and I 
apologize. We will not penalize you, you will have your full 
time. And we do appreciate all of you being here, and with 
that, we will proceed.
    Ms. Moore.

STATEMENT OF MARSHA H. MOORE, COMMISSIONER, GEORGIA DEPARTMENT 
            OF EARLY CARE AND LEARNING, ATLANTA, GA

    Ms. Moore. Thank you, Mr. Chairman, and the Members of the 
Subcommittee. On behalf of Governor Sonny Perdue and the State 
of Georgia, I thank the Members of this Committee for allowing 
me to come to speak to you and to testify and have an 
opportunity to answer some of your questions.
    In 2004, Georgia took a significant step in approving the 
early care and education system in our state by creating a new 
state department named Bright from the Start: Georgia 
Department of Early Care and Learning. The purpose of the 
department was to streamline funds and resources and to improve 
the early care and education in our state. We also look at it 
by putting an emphasis in the system on education and parents 
involvement. And the goal is of course to prepare our children 
for school.
    Georgia's nationally acclaimed and research-based, lottery-
funded universal pre-K program for 4-year-old children is one 
of the premier parts of our organization. The organization now 
also licenses all childcare facilities in the state, we 
administer the Federal food programs, we house the office of 
the department--the collaboration office for Head Start, we 
administer funds, the quality funds that come to the state to 
improve the quality of early care and education in our state, 
and we fund and provide support and oversight of the resource 
and referral agencies that are strategically placed throughout 
the state of Georgia. Another component which we are beginning, 
we will be starting to do in July will be the Even Start Early 
Literacy Program.
    Georgia has a very long and extensive program and a 
meaningful relationship with Head Start programs in our state 
where both programs have benefited mutually. For 11 years, 
Georgia Pre-K Program has worked closely with Head Start in 
blending our funds and resources to increase the number of 
children who have received high-quality pre-k programs in our 
state. We have also blended our funds to ensure that our staff 
receive high-quality training and professional development.
    Even though we have had a great and wonderful 11 years of 
this, we do acknowledge that there are some challenges that the 
state of Georgia will have to face and will face in working 
with the integration of Head Start programs within our system. 
I am going to discuss briefly some of these challenges and how 
we are working toward the successful integration of the 
programs and will be happy to give some recommendations to 
Congress after that.
    Georgia's Pre-K Program and the Head Start Programs differ 
in the governance structure. Head Start is governed by a local 
entity, policy councils, and board of directors whereby parents 
take a very active role in the governance of the program. 
Georgia Pre-K Program is governed on the state level, through 
contractual agreements with our providers of the Pre-K Program. 
However, parent participation is an important element of both 
of these programs.
    In Georgia, parents have a choice of where they would like 
to place their pre-K child in a pre-K program. They also have a 
choice of volunteering, they are able to volunteer, have parent 
conferences, and work closely with the program. State funding 
in Georgia follows the child and not the program.
    There are also differences in the program's standards in 
Pre-K and Head Start, both programs recognize the same elements 
of school readiness. Pre-K also, their curriculum is aligned, 
the instructional part is aligned with the Head Start 
standards. However, there are differences in the extent of the 
comprehensive services that Head Start provides their children 
and what Pre-K does in our state. There are also differences in 
the staff/child ratios.
    However, when we do blend our funds with Head Start and 
Pre-K we ensure that the Pre-K guidelines are met and we honor 
the Head Start performance standards as well and ensure those 
standards are followed and those programs we are funding is 
blended.
    In Georgia, there is a difference between Head Start and 
the monitoring system in the Pre-K program. In Pre-K we receive 
a visit, a site visit two times a year. For Head Start in 
Georgia, it is one site visit every 3 years with of course 
self-assessments given every year. The difference is that we 
have discovered in Georgia that research is telling us that the 
intensive monitoring system that we have in our Georgia Pre-K 
Program has a lot of influence on the success of our children, 
the outcomes of our children, and the strong curriculum part of 
the program and the environment, the high-quality of 
environments in our program. That creates an issue because with 
Pre-K there is this high level of monitoring, in Head Start 
there hasn't been quite as much. And if there is the 
integration of these two programs, it is very important that 
Georgia will be allowed to give an oversight, a comprehensive 
oversight of the Head Start system so that we can ensure 
program compliance and the quality of each of the programs that 
are delivered.
    In Georgia, we are serving right now 71,500 pre-K 4-year-
old children. And with this high number we realize with the 
integration of Head Start into our state that there will be an 
opportunity for Head Start programs to change the focus of 
serving four- and 3-year-olds to serving more 3 year olds in 
our state. With that opportunity, we will have more 3-year-olds 
in Georgia participating in a high-quality program. And that is 
definitely a benefit. But it will be something that we will 
have to make adjustments to.
    We also must deal with multiple funding streams and how we 
meet both of those funding stream requirements and there is 
going to be a challenge of the changing belief systems in both 
of those programs and there will be some resistance, and we 
recognize that.
    But I would like to leave with a couple of recommendations 
to the Congress, if I may. First of all is to require the 
states to work toward a seamless early care and education 
system that is beneficial to all. And we also recommend that 
the Congress--that states receiving money for the Head Start 
and delivering the Head Start programs that we maintain the 
high comprehensive services and programs that the Head Start 
programs do and that it is blended into our state. We also 
require that there is consistent oversight of the programs, and 
we further believe that legislation needs to clearly define the 
states authority and responsibilities in maintaining program 
compliance in all these programs.
    Thank you very much.
    [The prepared statement of Ms. Moore follows:]

Statement of Marsha H. Moore, Commissioner, Georgia Department of Early 
                     Care and Learning, Atlanta, GA

    In 2004 through the visionary leadership of Governor Sonny Perdue 
and the bipartisan support of the Georgia General Assembly, Bright from 
the Start: Georgia Department of Early Care and Learning was created to 
develop and administer a system of early care and education for 
Georgia's children from birth to age five. The Department which 
combines the mandated responsibilities of several state entities 
administers Georgia's Universal Pre-K Program that this year is 
providing quality early learning experiences to over 71,500 four year 
olds; licenses all child care learning centers, group day care homes, 
and family day care homes; administers the federally funded Child and 
Adult Care Food Program and the Summer Food Service Program to feed 
eligible children, adolescents, and adults; administers the federally 
funded Even Start Family Literacy Program; administers federal quality 
dollars earmarked for quality improvements through the Child Care and 
Development Fund; houses the Head Start State Collaboration office; 
funds and oversees the child care resource and referral system 
throughout the state; and administers initiatives to improve the 
quality of care children receive in out-of-home child care. The 
Department encourages and supports private/public partnerships through 
which much of its work is accomplished, and encourages and supports 
parental involvement in their children's educational experiences.
    The Department's foundation is the successful, lottery funded 
Georgia's Pre-K Program, recognized as one of the premier school 
readiness programs in the country. The program has operated for eleven 
years and has served over 600,000 children through the use of lottery 
funds. Research demonstrates that children participating in the Pre-K 
program gained on national norms for math problem solving skills, 
letter and word recognition, and receptive vocabulary. Research also 
tells us that at-risk children who attended Georgia's Pre-K Program 
were more ready for kindergarten, more academically skilled, 
communicated better, and behaved better than similar peers who did not 
attend the program. Support for the program from Governor Zell Miller 
through our current Governor Sonny Perdue and from the citizens of 
Georgia who have children in our program have been instrumental in the 
program's success.
    During the past eleven years, Georgia has enjoyed a fruitful 
relationship with Head Start that, through the blending of funds, has 
made it possible for us to serve thousands of additional children who 
otherwise might not have received services and made it possible to 
provide joint training to Head Start and Pre-K teachers and Family 
Service Workers and resource coordinators. Thousands of children have 
received high quality care and educational opportunities because of the 
comprehensive Head Start program standards. Because we have on a small 
scale demonstrated the power and effectiveness of a partnership between 
Head Start and Georgia's Pre-K Program, we eagerly anticipate and seek 
the opportunity to administer federal Head Start funds to build on and 
streamline a more coordinated early care and education system in 
Georgia. However, we recognize and acknowledge challenges that must be 
addressed for Georgia to reach its goal of a seamless coordinated 
system for its youngest citizens.
    One challenge Georgia will face has to do with the differences in 
governance of Head Start programs and Georgia's Pre-K Program. Head 
Start programs are governed at the local level by policy councils and 
boards of directors, which include parents who take an active role in 
program administration. In the early days Head Start programs were much 
smaller. Today many of these programs operate with multi-million dollar 
budgets and large numbers of staff. In contrast Georgia's Pre-K Program 
is administered at the state level. Parents can choose the program 
where their child will receive services depending on the type of 
curriculum and supporting services available. State money follows the 
child to whichever private or public program they choose. Georgia's 
Pre-K Program recognizes the importance of parent involvement and 
participation, but the program does not give parents responsibility to 
help administer the program. Because of these differences in governance 
between Head Start and Georgia's Pre-K Program, there may initially be 
mistrust and concerns relating to program administration. This issue 
can be resolved by developing and supporting parent advisory councils 
in communities where early care and education services are provided.
    Head Start programs are required to meet rigorous program 
standards. Georgia's Pre-K Program also requires providers to maintain 
high standards. The math and the language/literacy standards of 
Georgia's Pre-K Program recently received overall grades of A from the 
Center for the Improvement of Early Reading Achievement. Both programs 
agree on elements of school readiness, and the instructional portion of 
Georgia's Pre-K Program is aligned with Head Start standards. However, 
other portions of the Head Start standards are a challenge for many 
Pre-K program providers to meet, particularly providers in private 
child care settings. Currently, there are other standards in Georgia 
that differ. For example, Georgia's staff to child ratios for three-
year-old children is one staff for every 15 children. Head Start 
requires one staff for every eight (8) three-year-old children. In 
situations where children from Georgia's Pre-K Program and Head Start 
program are blended, the Department requires the higher Head Start 
standards to be met. Requiring the higher standards continues to be an 
obstacle to developing collaborative partnerships between Head Start 
and private child care settings in the state. To help overcome this 
obstacle and thus encourage partnerships between Head Start and private 
child care providers, the Department provides additional training and 
technical assistance.
    Research indicates that one of the strong components of Georgia's 
Pre-K Program is consistent monitoring and oversight of the program. 
Georgia's Pre-K Program providers receive at least two site reviews per 
year by our Department. In addition to the site reviews, Georgia's Pre-
K Program providers receive high quality training and technical 
assistance on an ongoing basis. With the Pre-K monitoring process and 
its governance structure, the Department can take appropriate action if 
monitoring reveals poor performance. Currently, Head Start programs 
receive a site review by outside consultants every three years with 
self-assessment reports required on an annual basis. If Georgia is 
designated to be a demonstration state, such limited oversight of Head 
Start programs would hinder my Department's ability to identify and 
resolve issues related to compliance with performance standards.
    In fiscal year 05 over fifty percent of Georgia's Pre-K children 
were considered economically at risk meaning that they might also be 
eligible for Head Start. A more deliberate blending and redirecting of 
federal Head Start funds and state Pre-K funds would allow more four 
year olds to be served and possibly allow Head Start funds to be 
redirected to serve at-risk three year olds in comprehensive high 
quality programs. The challenge here is for Head Start to be willing to 
change its focus from serving three and four year olds to focusing more 
on three year olds.
    Managing multiple funding streams may be a challenge for some 
states particularly when the state and federal government operate under 
different standards and require different initiatives. For example, 
Head Start programs are funded at the beginning of the service year, 
and periodically additional funding may be sent to programs to focus on 
special projects such as technical assistance or a male/father 
involvement project. In Georgia, Pre-K programs are funded on a monthly 
basis through a contractual agreement with providers. Pre-K initiatives 
are determined at the beginning of the year based on need and on money 
available after monthly payments and projections are made. This means 
that two programs are operated by the state for basically the same 
children with different focuses and services provided depending on the 
funding received by each program. This creates a somewhat confusing 
system with some children with the same needs being treated 
differently. Resources and requirements need to be coordinated to 
ensure consistency and fairness to all of Georgia's children.
    Lastly, another challenge will be the differences in the culture 
and philosophy of the Head Start and Pre-K programs. The programs were 
created in different historical eras; consequently, each program was 
based on a different set of beliefs. To successfully blend the two will 
require both programs to adjust those beliefs. And as we know, changing 
belief systems is challenging and sometimes met with resistance. Many 
Head Start employees have worked with the program for years, and 
typically programs operate in well-established community systems. While 
Georgia's Pre-K Program may not have the long history that the Head 
Start program has, many Pre-K providers are loyal to the principles on 
which the program was based. Both programs will have to be willing to 
adjust their underlying belief systems in order for the blended model 
to work successfully. Georgia's extensive collaborations with Head 
Start will help to relieve some of the mistrust and uncertainties, but 
it is unrealistic not to expect challenges in cooperation and buy-in to 
a comprehensive statewide system. It is imperative that Georgia build 
on its tradition of collaboration and past successes while at the same 
time provide political support for a smooth transition.
    In closing, based on our experience in Georgia, we respectfully 
recommend that Congress:
    1.  require states to develop standards that are at least as 
rigorous as the current Head Start program standards;
    2.  require states to work toward a seamless early care and 
education system that includes Head Start in such a way that 
collaboration is beneficial to all parties;
    3.  require consistent program monitoring;
    4.  clearly define the states' authority and responsibilities in 
obtaining and maintaining program compliance.
    On behalf of the state of Georgia and Bright from the Start: 
Georgia Department of Early Care and Learning, I thank the members of 
the House Subcommittee on Education Reform for the opportunity to 
provide testimony for your consideration. Georgia wholeheartedly 
supports the idea of more effective integration of Head Start and other 
school readiness programs, and we applaud Congress's efforts to ensure 
that our nation's children and their families receive the most 
efficient and effective preschool services possible. We believe that 
Georgia is well positioned, with the governance structure and 
experience in blending federal and state funds, to help create and 
demonstrate a model of an effective system for early care and 
education.
                                 ______
                                 
    Chairman Castle. Thank you, Ms. Moore, we appreciate it.
    Mr. Alexander?

STATEMENT OF JEFFREY ALEXANDER, ASSISTANT HEAD START DIRECTOR, 
         BIG FIVE COMMUNITY SERVICES, INC., DURANT, OK

    Mr. Alexander. Good morning, Mr. Chairman, and Members of 
the Subcommittee. I appreciate the opportunity to appear before 
you today and to share with this distinguished panel the 
successes of Oklahoma in its collaborative efforts among 
Federal, state and local programs offering early childhood 
services.
    My main message to you today is that there is nothing about 
the current Federal to local Head Start funding structure or 
the Head Start performance standards that precludes active and 
effective coordination and collaboration among the 
organizations and agencies serving young children and their 
families.
    What the Oklahoma experience demonstrates is that it can be 
done and done well within the existing structure. Today, 
Oklahoma public schools, Head Start, and childcare programs all 
collaborate to meet the needs of our children and working 
families. The result is that more children and families are 
receiving quality comprehensive services in full day settings. 
There are more qualified teachers, more licensed facilities, 
longer hours and days of service. The system is locally driven. 
Each program must meet the highest standards of the 
collaborating partners.
    What it takes to make this work are committed and dedicated 
personnel in each of the programs. Simply changing the funding 
structure isn't going to make otherwise unengaged state 
officials more interested in early childhood education and 
services. And it is clear that the existing funding structure 
is not an impediment to close coordination and collaboration.
    In Oklahoma, state and local leaders are working together 
to use the Head Start, Pre-K, and childcare funds, both to 
improve the quality of the programs and to meet the needs of 
working families. At the same time, these partnerships 
strengthen programs by putting funds together to bolster 
quality and support comprehensive services that would otherwise 
not be available.
    The Head Start Program performance standards mandate the 
comprehensive quality services to be provided to children and 
families served by these programs. It is because Head Start 
recognizes that at-risk children need a range of services to 
become school ready. Therefore, the individualized services 
provided by Head Start include those related to education and 
early childhood development, such as age-appropriate 
instruction in math, literacy, science, art, medical, dental, 
and mental health services, nutrition, and parental involvement 
in the development of their children.
    In order to provide these services, Head Start programs 
work with an array of community partners. Let me take you back 
home, it is November 10, 2002, 7:25 a.m., the Head Start 
director pulls up at the building to find a homeless family on 
the door step of the office building, father, mother, and two 
small children with everything they have in two handbags. After 
meeting the Head Start director, takes these children and their 
family to have breakfast. One child is Head Start age-
appropriate so therefore that child is enrolled immediately to 
begin receiving services. The second child is first grade level 
age so that child is taken to that local public school and 
enrolled.
    The work with the Community Action Agency in that local 
area to get a home for that family. This is on a short-term 
basis but for homeless persons. Dad seems to have some type of 
disability so they reach out to the mental health services, 
which they partner with in that community, and ask for an 
evaluation. This is done. Then mom is evaluated and done a OSIB 
check, then put to work as a substitute, whether it be cook 
aide or teacher's aide to have some funds coming into that 
family.
    So that is how we partner out there on a daily basis. 
Otherwise, that family would not have had any services. Now 
today, after that partnership 2 years later, through Head Start 
and its collaborative efforts this family is self-sufficient. 
Dad has his own computer repair business. I must hurriedly move 
on but that takes you to the local level to see and that is 
where we have to be is on the local level to see how this 
works.
    It is this existing structure that works. Can it be 
improved upon and strengthened? Of course it can be. Do we need 
to change the funding structure to make it work? Absolutely 
not. Do we need to provide greater flexibility in terms of the 
performance standards?
    No. What we do need is funding to make sure we are serving 
as many eligible children, such as these in this family, as 
possible. We stretch our dollars.
    In short, Head Start works. It is a collaborative effort 
within the community, state, the school system, and the 
providers of Head Start. It gets our poorest children ready to 
learn and better prepares them to succeed in school and in 
life. We call it Head Start for a reason. If Congress chooses 
to dilute the existing performance standards, if we exclude 
parental involvement in the Head Start experience, if we try 
too hard to achieve collaboration by experimenting with 
funding, then we have lost Head Start. This is a program that 
prepares our poorest children for school and later life. If we 
disregard the foundation and intent of this program, then Head 
Start will no longer exist. We cannot allow this to happen.
    Thank you for your time.
    [The prepared statement of Mr. Alexander follows:]

Statement of Jeffrey Alexander, Assistant Head Start Director, Big Five 
                  Community Services, Inc., Durant, OK

    Mr. Chairman and Members of the Subcommittee, good morning. I am 
Jeff Alexander, Assistant Head Start Director for Big Five Community 
Services, Inc., a Community Action Agency in rural, southeastern 
Oklahoma. I have served in this position for the past three years.
    I appreciate the opportunity to appear before you today and to 
share with this distinguished panel Oklahoma's success story in terms 
of collaborative efforts among federal, state and local programs 
offering early childhood services. I will detail what we have done and 
continue to do in Head Start on the local level to maximize benefits, 
avoid gaps in service, and create quality, comprehensive systems when 
it comes to early childhood programs. Coordination and collaboration is 
not a new concept in Oklahoma; my director, Ms. Jackie Watson, has been 
collaborating in some form with public school districts and others for 
nearly 20 years. She began in a small, rural school in Yuba, Oklahoma, 
where, as the Superintendent of Schools likes to say, ``the sun kisses 
the earth every morning.'' That collaboration has been expanded and 
today includes 18 school districts and four day care facilities, 
serving a total of 807 children and families in a five county area.
COLLABORATION AND COORDINATION: A NATIONAL PICTURE
    Head Start has a long history of delivering comprehensive and high 
quality services designed to foster healthy development in low-income 
children. Head Start programs deliver a range of individualized 
services in the areas of education and early childhood development; 
medical, dental, and mental health; nutrition; and parent involvement 
in the development of their children. In order to provide these 
services, Head Start programs work with an array of community partners.
    All Head Start programs must adhere to the Head Start Program 
Performance Standards, which define the services to be provided to the 
children and families they serve. The Performance Standards constitute 
the expectations and requirements that Head Start grantees must meet. 
They are designed to ensure that the Head Start goals and objectives 
are implemented successfully, that the Head Start philosophy continues 
to thrive, and that all programs maintain the highest possible quality.
    The Head Start Program Performance Standards encourage 
collaboration and coordination by specifying that all programs must:
    <bullet>  ``take an active role in community planning to encourage 
strong communication, cooperation, and the sharing of information among 
agencies and their community partners and to improve the delivery of 
community services to children and families.''
    <bullet>  take affirmative steps to establish ongoing collaborative 
relationships with community organizations to promote the access of 
children and families to community services that are responsive to 
their needs, and to ensure that Early Head Start and Head Start 
programs respond to community needs.'' In addition to local elementary 
schools, these community organizations include those that provide 
health care, family, disability, child protective, and child care 
services.
    <bullet>  ``make specific efforts to develop interagency agreements 
with local education agencies.''
    <bullet>  ``establish and maintain procedures to support successful 
transitions for enrolled children and families from previous child care 
programs into Early Head Start or Head Start and from Head Start into 
elementary school, a Title I of the Elementary and Secondary Education 
Act preschool program, or other child care settings.''
    Head Start program administrators understand the importance of 
coordination among their programs, child care programs and other pre-K 
and state education programs. Indeed, collaboration with other 
community agencies is central to Head Start's mission and service 
delivery design because it is fundamental to delivering high quality, 
comprehensive services.
    Coordination and collaboration is occurring in many states and at 
the local level all over this country. In fact, many Head Start 
programs provide full day, full year services by leveraging child care 
funds to extend their services. Similarly, pre-kindergarten services 
often co-locate with Head Start programs to provide extended education 
and comprehensive health and nutrition services to a larger group of 
children.
    Dr. Wade Horn, Assistant Secretary for Children and Families, 
Department of Health and Human Services, acknowledged the extent of 
collaboration taking place in testimony before this Committee:
        . . .despite its federal-to-local program structure, Head Start 
        has always recognized that the states play an important role in 
        the formulation and implementation of policies and initiatives 
        that affect low-income children and their families. 
        Partnerships have always been one of Head Start's highest 
        priorities. These include partnerships with local school 
        districts--nearly 450 of which operate Head Start programs--and 
        local governments. . .\1\
---------------------------------------------------------------------------
    \1\ Horn, W. (March 6, 2003). Testimony on the President's Plan to 
Strengthen Head Start before the Subcommittee on Education Reform, 
Committee on Education and the Workforce, U.S. House of 
Representatives. Accessed at http://edworkforce.house.gov/hearings/
108th/edr/headstart030603/horn.htm on April 19, 2005.
---------------------------------------------------------------------------
    The Head Start Bureau, in a recent 228-page report, Head Start-
State Collaboration Offices, extensively documents how Head Start 
programs are collaborating with states, localities, and private 
organizations. In the report, the Head Start Bureau catalogued the 
extent of this collaboration by providing summaries of activities for 
every state in the country. These partnerships and collaborative 
efforts often are facilitated by Head Start State Collaboration Offices 
and are intended to:
    <bullet>  Help build early childhood systems and enhance access to 
comprehensive services and support for all low-income children;
    <bullet>  Encourage widespread collaboration between Head Start and 
other appropriate programs, services and initiatives, augmenting Head 
Start's capacity to be a partner in State initiatives on behalf of 
children and their families; and
    <bullet>  Facilitate the involvement of Head Start in State 
policies, plans, processes, and decisions affecting the Head Start 
target population and other low-income families.
COLLABORATION AND COORDINATION: THE OKLAHOMA EXPERIENCE
    Head Start programs in Oklahoma have formed partnerships with 
community agencies and others to ensure that comprehensive, quality 
services are provided to the children and families enrolled in our 
programs. Compliance with the Head Start Performance Standards demands 
no less of us. For example, Head Start provides family advocates to 
help families find needed resources, such as a family medical facility. 
A family in need of electricity or other utility can be assured that we 
will find a resource in the community to help fulfill this need. In 
instances where parents have not completed High School, we work with 
institutions or businesses in the community to find classes offering 
G.E.D. tutoring. We know a better-educated parent is more likely to 
create a stronger learning environment at home. Parents in need of 
employment may be referred to the local Workforce Investment (WIA) 
office for job training opportunities. These are but a few of the 
services we are able to provide through collaborative efforts with 
others in the community.
    Although state and local level leaders met regularly to identify 
and remove barriers to locally-driven partnerships, it was legislation 
passed by the State Legislature in 1998 that served as the catalyst for 
a strong partnership between Head Start and local school districts.
    Legislation passed in 1998 authorizes public school districts in 
Oklahoma to provide pre-kindergarten programs to four-year olds and to 
receive state funding according to a weighted formula that provides 
more funding per child for disabled, bilingual and poor children. This 
expanded pre-K program is run by the public schools on a voluntary 
basis, through collaborations with Head Start programs and day care 
centers.
    Oklahoma has made a commitment to program quality and requires all 
pre-K teachers to have a college degree and a certificate in early 
childhood education. Pre-K teachers must also receive the same 
compensation and benefits as teachers in public elementary schools. 
These two requirements distinguish Oklahoma's pre-K program from child 
care centers in the State. By law, group sizes for Oklahoma's pre-K 
program are set at 20 and child/staff ratios cannot exceed 10/1. These 
requirements correspond to Head Start program guidelines. The State 
does not require use of a specific curriculum but leaves that decision 
in the hands of local school districts.
    Today, Oklahoma public schools, Head Start and child care programs 
collaborate to meet the needs of working families. The result is that 
more children and families are receiving quality, comprehensive 
services on a full-day, year-round basis. There is a more qualified 
staff, more licensed facilities, and longer hours and days of service. 
In short, more children are being served with higher quality, more 
comprehensive programs. The system is locally-driven but facilitated 
and supported by the State. Each program must meet the highest 
standards of the collaborating partners. So, for example, Head Start 
programs delivering the State's pre-K services must have degreed 
teachers. Highly dedicated people at the state and local level make the 
system work.

CONCLUSION
    The Oklahoma experience demonstrates that it is possible within the 
existing structure to have a high degree of coordination and 
collaboration among Head Start programs, state pre-k programs and child 
care programs. What it takes are committed and dedicated personnel at 
each program to make it work. Simply changing the funding structure 
isn't going to make otherwise unengaged state officials more interested 
in early childhood education and services. And, it is clear that the 
existing funding structure is not an impediment to close coordination 
and collaboration.
    In Oklahoma, state and local leaders are working together to use 
Head Start, pre-K and child care funds both to improve the quality of 
the programs and to meet the needs of working families. At the same 
time, these partnerships are strengthening programs by putting funds 
together to bolster program quality and support comprehensive services 
that otherwise would not be available.
    The quality of Oklahoma's delivery system is in great measure due 
to framing our services based on Head Start's exacting program 
performance standards. Head Start's Program Performance Standards are 
the foundation for quality, comprehensive services. They require 
attention to literacy, math, science, arts, physical, social, emotional 
and other areas of children development. The Standards are rigorous and 
programs are regularly monitored for compliance. They help guide good 
teaching and assessment. They should not be sacrificed in the name of 
flexibility. The Oklahoma experience is that they work to improve the 
lives and school readiness of children. Ladies and gentlemen, Head 
Start works!
                                 ______
                                 
    Chairman Castle. Thank you, Mr. Alexander.
    Dr. Barnett?

    STATEMENT OF DR. W. STEVEN BARNETT, DIRECTOR, NATIONAL 
   INSTITUTE FOR EARLY EDUCATION RESEARCH, NEW BRUNSWICK, NJ

    Mr. Barnett. Good morning, Mr. Chairman, distinguished 
Members, thank you for this opportunity to address you. I am 
Steve Barnett, I am the director of the National Institute for 
Early Education Research. We are independent and non-partisan, 
and we provide research and analysis on early childhood policy.
    Over the past 40 years, we have developed a patchwork quilt 
of Federal, state, local, and private programs to serve 
children at ages three and four in the United States. We have 
made some remarkable progress, 7 in 10 4-year-olds are in some 
kind of preschool program, 4 in 10 at age three. Yet despite 
this progress, many children still don't attend a preschool 
program, including more than half of the three and 4 year olds 
in poverty. And many of those who do attend do not go to a 
good, effective preschool program. Now as an economist who 
studied the returns to high quality programs over the past 20 
years, I find that America pays a high price when we fail to 
provide these programs with high standards and effective 
education.
    Across the Nation we are at a point where public preschool 
programs really do have serious concerns with respect to 
integration and coordination. Head Start serves about 900,000 
children, mostly at three and four. State pre-K's now serve 
over 740,000 almost all 4-year-olds. Additional children are in 
public school programs for children with disabilities. Others 
attend private programs that are at least partly paid for with 
child care subsidies. These programs for the most part serve, 
at least partially and sometimes highly overlapping 
populations.
    In many ways, this is a good situation. Programs rarely 
have enough money to provide a full day of care and good 
education. The only way to do that is to combine some of these 
programs. So there is a potential for cooperation and 
integration to lead to better services for children. However, 
this overlapping system we have is also confusing for parents 
and providers. There are conflicting regulations, highly 
variable services, and uneven coverage. Our studies make this 
clear. If you look across the country, for example, you will 
see that over the past decade great progress has been made in 
the South and Northeast and the West has simply been left 
behind in terms of increasing enrollment. Rural kids, and 
Latino kids in particular, seem to be under served.
    So if we look across the country, we see this picture where 
a few states serve all 4-year-olds. By our count, seven states 
serve more than half of all of their 4-year-olds between state 
pre-K, Head Start, and IDEA. And yet 12 states provide no 
preschool--no state preschool program at all. Their standards 
vary widely. Some states require a 4-year college degree. Some 
states require no college education at all. Only 16 had 
comprehensive learning standards, although that is changing 
rapidly.
    And state funding varies from $1,000 to $9,000 per child. 
Only three states come within $1,000 of spending what Head 
Start has. The average state funding is only half the Federal 
Head Start amount. That is not a basis for cost comparison. And 
that is because that is only state spending. The reason we 
can't accurately compare costs, a major impediment to learning 
how to coordinate and integrate services, is public data 
systems don't provide accurate information about spending on 
these programs. Many state programs are partly, and in some 
cases mostly, funded by local sources where those funds are not 
tracked.
    So it is nearly impossible to find out how much they spend. 
And one of our recommendations, one of my recommendations is 
that we develop joint data systems that provide unduplicated 
counts and track these funds.
    Beyond this, I don't have proven solutions to offer you 
today. Yet, I do believe we need to enable state's Head Start 
and other Federal programs to jointly develop and test new 
approaches, particularly where states are already offering 
high-quality preschool programs. There are many options to do 
this. I have attached an appendix to my testimony that in fact 
details many of the ways collaboration and cooperation already 
happen. At least 21 states use Head Start with your state Pre-
K.
    In addition, I would offer the following recommendations 
for limited experiments where we actually gather information on 
whether they work. Give states increased flexibility to use the 
Child Care Block Grant, TANF, and other Federal funds for state 
pre-K. Give states increased authority over Head Start where 
state pre-K standard are high. Require Head Start programs to 
maximize participation in state pre-K where they can do this 
without diluting their services. Let Head Start and state pre-K 
programs essentially trade the services of each other's 
eligible populations. Where there are Head Start-eligible 
children in areas there are so few of them sometimes it is not 
feasible to have a Head Start Program, yet there is a larger 
population, make credits available to the families so they can 
purchase these services themselves. And finally, as an 
incentive for states to have high pre-K standards, provide 
supplemental funds to Head Start to meet higher state 
standards. For example, allowing Head Start to hire teachers 
with BA degrees or to reduce class size. Now no one can 
guarantee that any of these recommendations will actually work. 
That is why we need true experiments, rigorously evaluated. We 
need to look at how do they affect the literacy, math, social, 
and moral development, and the health of kids when we do try 
these kinds of things to see if they work better.
    I have some examples of the issues that arise from my own 
state of New Jersey. I want to point out that my comments do 
not reflect the views of anyone in state government, 
particularly my wife who is the director, she is assistant to 
the commissioner for Early Childhood in New Jersey. We have 
sought in New Jersey to integrate with a very high-quality 
program, Head Start, and childcare and other services. It 
hasn't been easy. We have had difficulties with the 
requirements for verifying the income of families for childcare 
subsidies. We have had Head Start agencies turn over and not 
automatically re-engage with the same arrangements they had to 
partner in providing services. We have had problems where we 
seem to have unfilled Head Start slots over here, Head Start-
eligible children over here being served in Pre-K, and yet Pre-
K-eligible children over here not being served.
    There are ways to work that out. And, in fact, the state is 
currently working with the Head Start regional office to find 
solutions to these problems. So they are working at it.
    In conclusion, I want to thank you for taking up this 
issue. The nation has been making more headway in expanding 
access than it has in improving quality. And yet as an 
economist, I think it is important to point out it is not a 
good policy to serve goods with public dollars unless you 
provide a high-quality, effective education with those dollars.
    Thank you very much.
    [The prepared statement of Mr. Barnett follows:]

 Statement of Dr. W. Steven Barnett, Director, National Institute for 
              Early Education Research, New Brunswick, NJ

    Mr. Chairman and distinguished Members, thank you for the 
opportunity to address you today. I am Steven Barnett, Director of the 
National Institute for Early Education Research (NIEER) at Rutgers 
University. NIEER is an independent, nonpartisan organization that 
conducts and disseminates research on early childhood education policy. 
I am also a professor of education economics and policy. I wish to 
express my appreciation to the Subcommittee for investigating the 
potential for improvement of early childhood education through better 
integration.
    Over the past 40 years a patchwork quilt of federal, state, local, 
and private programs has evolved to serve children at ages 3 and 4. We 
have made some remarkable progress: 7 of 10 children now attend a 
preschool program at age 4 (about the same percentage that attended 
kindergarten in 1970); 4 of 10 attend a preschool program at age 3. 
Despite this progress many children still do not attend a preschool 
program, including more than 1/2 of the 3- and 4-year olds in poverty. 
And, many who do go to preschool still fail to get an effective 
education. As an economist who has studied the returns to high quality 
preschool education for over 20 years, I find that America pays a high 
price because public programs for young children have low standards and 
too little funding to reach high standards.
    Across the nation, public preschool programs have grown to the 
point where coordination and integration are important concerns. Head 
Start provides for about 900,000 children, 800,000 at ages 3 and 4. 
State preschool programs serve over 700,000 children, nearly all of 
them at age 4. State pre-K now serves more 4's than Head Start. 
Additional children are served in public school programs for young 
children with disabilities. Others attend private programs at least 
partly paid for with child care subsidies. Most public programs target 
highly overlapping populations.
    This complex arrangement is generally good. Programs rarely have 
enough money to serve all eligible children. Child care subsidy rates 
are too low to purchase effective education, and blending programs may 
be the only way to obtain education and a full day of child care. There 
is potential for better services through cooperation and integration. 
However, there is also potential for confusion among parents and 
providers, conflicting regulations, highly variable services, and 
uneven coverage. NIEER's annual reports on state pre-k and analyses of 
national survey data from parents make this clear. There are dramatic 
differences among the states and within states. Over the past decade, 
the south and northeast rapidly expanded preschool education, while the 
west lagged behind. Rural and Latino children appear to have less 
access to early childhood education than others.
    A few states offer preschool education to all children at age 4, 
and others are moving toward that goal. By our count, in 7 states more 
than 1/2 of the 4-year-olds were served by state pre-K, Head Start and 
IDEA combined in 2002. However, 12 states provided no state funding for 
Pre-K in 2002. State early education standards also vary widely. Many 
states require teachers to have a BA and specialized training, but 
others do not even require a 2-year degree. Only 16 had comprehensive 
learning standards, though that has been changing fast. State funding 
varied from $1,000 to nearly $9,000 per child, but only 3 states came 
within a $1,000 of Head Start spending. Average state funding was only 
1/2 the federal Head Start amount. However, it is impossible to make 
accurate cost comparisons today.
    The reason costs cannot be accurately compared, and a major 
difficulty for learning how to better integrate early education 
programs, is that public data systems don't provide the needed 
information. For example, many state programs are partly funded by 
local schools (sometimes with Title I funds), but it is nearly 
impossible to find out how much they spend. The federal government 
should remedy this problem by supporting the development of joint data 
systems that provide unduplicated counts of the children uniquely or 
jointly served, the services they receive, and the public expenditures 
that support them. The nation knows how much the federal, state, and 
local governments spend per child on K-12 education in each state. 
Similar information should be available on preschool education.
    I don't have proven solutions to offer you today. Yet, the 
situation is only going to become more serious, making it essential to 
enable states, Head Start, and other federal programs to jointly 
develop and test new approaches, particularly where states offer good 
universal preschool education. There are many options to be tested from 
shifting Head Start resources to younger children to the development of 
joint programs pooling state and federal program resources. I have 
attached an appendix to my testimony that details existing 
collaborative efforts; at least 21 states now use Head Start to serve 
7% of their children in state pre-K. My recommendations for approaches 
that could be tested in limited experiments are as follows.
    <bullet>  Give states increased flexibility to use Child Care Block 
Grant, TANF and other federal funds for state pre-K.
    <bullet>  Give states increased authority over Head Start where 
state pre-K standards are high and coverage extensive.
    <bullet>  Require Head Start programs to maximize participation in 
state pre-K where this can be done without diluting services and states 
are willing to provide needed funds.
    <bullet>  Credit Head Start and state pre-K for serving each 
other's eligible populations when they can meet the requisite 
standards. This might be more cost-effective while providing greater 
parental choice and competition.
    <bullet>  Where the Head Start eligible population is too sparse to 
support a Head Start program, offer families credits to be used to 
purchase equivalent services from providers that meet Head Start 
standards.
    <bullet>  As an incentive for high pre-K standards, provide 
supplemental funds to Head Start to meet higher state standards, for 
example, enabling Head Start to hire teachers with BA degrees and pay 
competitive salaries or to reduce class size.
    No one can guarantee that these or any other policy changes will 
succeed. Thus, it is vital that the federal government support true 
experiments that are rigorously evaluated. This will provide a 
safeguard so that policy changes do not lead Head Start and other 
programs to lose their effectiveness, and it will ensure that 
definitive conclusions can be reached regarding what works. Broad 
implementation of policy changes should proceed only after positive 
findings.
    I have some examples from New Jersey where I reside. My comments do 
not represent the views of anyone in state government, including (and 
particularly) my wife, Dr. Ellen Frede who is Assistant to the 
Commissioner for Early Childhood. New Jersey is implementing the 
nation's most ambitious pre-K program for all 3-and-4-year olds in 31 
school districts that serve a 1/4 of our children. This program has 
sought to integrate child care and Head Start with state pre-K. This 
has not been easy. Fro example, we have had difficulties with the 
requirements to verify income for child care subsidies. When Head Start 
agencies have turned over, agreements have not been automatically 
continued leaving districts to face gaps in services. We appear to have 
problems with unfilled Head Start slots in some districts while Head 
Start eligible children occupy state pre-K slots and other children can 
not find places. The state is currently working with the Head Start 
regional office to find solutions to some of these problems.
    In conclusion, I want to thank you once again for taking up the 
cause of improving early childhood education. The nation has been 
making more headway in expanding access than in improving quality. Yet, 
increasing the numbers of children served with public money is sound 
policy only when it also provides an effective education. Whatever you 
can do to ensure that more children receive a high quality, effective 
preschool education will pay substantial human and economic dividends 
far into the future.

      Appendix: Current State/Local Collaborations with Head Start
                Debra Ackerman and Dr. W. Steven Barnett
    Head Start and the States partner in a number of ways already. A 
basic overview follows.

State Financial Collaborations
    Seventeen states supplement federal Head Start funds in order to 
provide over 28,000 slots, wrap-around services, and quality 
enhancements. In fiscal year 2003, this supplemental funding totaled 
over $177 million.

[GRAPHIC] [TIFF OMITTED] T0780.001

State-Head Start Preschool Collaborations
    In 2002-2003, just under 740,000 children were enrolled in state-
funded preschool initiatives in 38 states. About 7% of the preschoolers 
enrolled in these state-funded programs were served in Head Start 
programs. At least 21 states used Head Start programs to serve some 
state pre-K children (Barnett, Hustedt, Robin, & Schulman, 2004). About 
13% of the public schools operating preschool programs reported using 
Head Start funds according to an NCES report on pre-K in the public 
schools.

State Administrative Collaborations
    Every state-as well as the District of Columbia and Puerto Rico-
also receives grants from the Administration for Children and Families 
to fund state Head Start Collaboration Offices. The intent of these 
grants was to ``create a visible presence for Head Start at the state 
level and to assist in the development of multi-agency and public-
private partnerships among Head Start and other interested 
stakeholders'' (California Head Start State Collaboration Office, 
2005). These offices are also responsible for integrating the efforts 
of various state and community organizations in eight key areas:
    <bullet>  Improve access to health care services
    <bullet>  Improve the availability, accessibility, and quality of 
child care services
    <bullet>  Improve collaboration with welfare systems
    <bullet>  Expand and improve education opportunities in early 
childhood programs Initiate interactions with AmeriCorps-The National 
Service Program
    <bullet>  Improve opportunities for children with disabilities
    <bullet>  Improve access to family literacy services
    <bullet>  Improve collaboration for homeless families (Nevada Head 
Start Collaboration Office, 2005).
    In order to reach these goals, states have established various 
noteworthy partnerships. For example, in Nevada all Head Starts sites 
have applications for the state's CheckUp program, a health insurce 
program for children from low-income families (Nevada Head Start-State 
Collaboration Project, 2005). Pennsylvania has four Technical 
Assistance Regional Coordinators. Their background, areas of expertise, 
and contact information are available on the state's Collaboration 
Project web site (Pennsylvania Head Start State Collaboration Project, 
2005). Texas has established a statewide online trainer registry. 
Trainers must be approved based on their educational background and 
training received in adult education and learning, as well as their 
experience working with children and teaching adults (Texas Head Start 
State Collaboration Office, 2005). .

REFERENCES
Barnett, W. S., Hustedt, J. T., Robin, K. B., & Schulman, K. L. (2004). 
        The state of preschool: 2004 state preschool yearbook. New 
        Brunswick, NJ: NIEER.
California Head Start Collaboration Office. (2005). Overview. Retrieved 
        April 18, 2005 from http://www.cde.ca.gov/sp/cd/re/
        chssco.asp?print=yes
Nevada Head Start-State Collaboration Project. (2005). Head Start 
        collaboration-initiatives. Retrieved April 18, 2005 from http:/
        /www.welfare.state.nv.us/chiid-care/
        headstartlHeadStartInitiative.htm
Pennsylvania Head Start State Collaboration Project. (2005). Technical 
        assistance. Retrieve April 18, 2005 from http://www.center-
        school.org/hsscp/map-ta.php
Smith, T., Kleiner, A., Parsad, B., Farris, E., & Greene, B. (2003). 
        Prekindergarten in U. S. public schools: 2000-2001.-Statistical 
        analysis report. Washington, DC: National Center for 
        Educational Statistics, U. S. Department of Education, 
        Institute of Education Statistics.
Texas Head Start State Collaboration Office. (2005). Trainer registry. 
        Retrieved April 18, 2005 from http://www.uth.tmc.edu/thssco/
        careerdev/index.htm
                                 ______
                                 
    Chairman Castle. Thank you, Dr. Barnett.
    Dr. Clifford.

 STATEMENT OF DR. RICHARD M. CLIFFORD, SENIOR SCIENTIST, FRANK 
   PORTER GRAHAM CHILD DEVELOPMENT INSTITUTE, CHAPEL HILL, NC

    Mr. Clifford. Thank you, Mr. Chairman, and Members of the 
Committee. I appreciate the opportunity to be here. My name is 
Dick Clifford, and I am a researcher at the FPG Child 
Development Institute at the University of North Carolina at 
Chapel Hill.
    And I will start with my disclaimer. I am representing 
myself and the work that I do but not the university or any of 
the agencies that have supported this work. So these are my 
opinions here.
    I will not go into all that I do but I have had two large-
scale projects looking at pre-kindergarten in a total of 11 
different states in the U.S. and those states together 
represent about 80 percent of all of the children who are in 
pre-K, state-funded pre-K in the U.S. So a lot of experience 
looking at state pre-K efforts.
    I also took a leave of absence from the university for a 
year and worked in state government in North Carolina when we 
were designing and implementing what is known as Smart Start in 
North Carolina, a general early childhood initiative. So I had 
an opportunity there to look particularly at implementing 
programs at the state level, so real time working with Head 
Start, Childcare and Early Intervention Services with pre-K 
programs, trying to bring those programs together and integrate 
services. So I appreciate very much the difficulty of the task 
that you are undertaking here and also the importance of it.
    In the last decade, we have actually seen pretty dramatic 
increases in investments in early childhood services, but we 
still have only what I consider to be minimal formal 
coordination of efforts across childcare, early intervention of 
services of children with disabilities, and preschool programs 
with Head Start.
    Let me just give you an example from my own current work 
relating to Head Start and state pre-K programs. You have heard 
today some comments about efforts at the state level to do 
coordination and collaboration. Both Head Start and Pre-K 
Programs essentially serve the same population. In virtually 
every state there is either a sole requirement that low-income 
children be served or that is one of the major criteria in the 
program, which of course the same is true for Head Start.
    One would expect then that there would be very close 
cooperation and coordination across Pre-K Programs and Head 
Start. In fact, one would think that states would have first 
turned to Head Start providers to actually help implement Pre-K 
Programs and they may have started that way. But in fact when 
we look at the state Pre-K Programs that we have examined, only 
about 15 percent of these classes, pre-K classes in the states 
we have studied are in Head Start programs. And two of those 
states, Ohio and Kentucky, account for most of that 15 percent.
    If you look at the rest of the states, we are talking about 
5 or 6 or 7 percent. So we failed, at least in our initial 
attempts, to try to integrate Head Start and public Pre-K 
programs, at least in my opinion.
    Then, second, as a state administrator, when I worked in 
public government in North Carolina, I found that linking the 
Smart Start initiative with Head Start go back into how these 
two are coordinated but clearly Head Start is run by the 
Federal Government. There is a state collaboration office in 
states, supported by the Federal Government, to help with 
collaboration between Head Start and other early childhood 
programs but still all of the decisions are made through the 
Federal Government. The standards are set at the Federal 
Government, decisions about which programs to fund, where 
expansion will take place for Head Start all happen at the 
Federal Government whereas the decisions for childcare, early 
intervention, and preschool pretty much are centered at the 
state level with some of that delegated down to the local 
level.
    I would just add in here one other factor, and that is that 
schools have become increasingly involved in serving preschool-
aged children. We did a study--survey of data sources at the 
Federal level, trying to identify how many children were served 
by schools prior to kindergarten entry, and by the turn of the 
century about a million children in the U.S. were in schools 
prior to their normal kindergarten entry age. And that number, 
that million, is about a fourth of the number of 4-year-olds in 
the U.S. There are about four million 4-year-olds in the U.S., 
so about one in four children are getting services through 
schools prior to school entry. So schools have become a major 
player in recent years in the early childhood field.
    Just in passing, I would say we are starting a new 
initiative at North Carolina that is trying to help look at how 
the schools and local providers work together to serve young 
children.
    OK, in 2003, the Office of Management and Budget estimated 
that Federal and state expenditures on preschool and childcare 
programs totaled about $24 billion. And I have provided you a 
table that specifically looks at North Carolina about the same 
time period. We in North Carolina in that same 2002/2003 were 
spending about three quarters of a billion dollars a year on 
early childhood services in North Carolina for children from 
birth up to 5 years of age. And there is no single dominant 
provider in that group. Head Start has a large share of that 
three-quarters of a billion but nowhere near the majority of 
it. No one provider is dominant. The legislature in North 
Carolina came back to the state and told us we want to make 
sure these funds are being used effectively and efficiently. 
Both Governors and states are seeking to make the most 
efficient and effective use of the limited resources and are 
naturally concerned that the services not be duplicated, that 
they are used to maximize the impact on children, and that all 
appropriate resources are directed toward this population. 
These are goals I know that you share as a Committee.
    Now what recommendations? I think I would first say that 
the problems with integrating services for young children are 
tied more to organizational and structural features than they 
are to the specific requirements on the programs, the 
individual standards and the technical parts of the 
legislation. The problem is that there is no clear message 
about who is in charge, what is the relative role, what should 
be the relative role of Head Start, childcare, and these other 
services that we have talked about?
    There are a few states that are trying to address that. You 
have heard already from the commissioner of the new department 
in Georgia that is trying to bring together a variety of 
services in Georgia under a new department there. Massachusetts 
is in the process of trying to develop a new department that 
will cover all of early childhood services. In North Carolina 
right now we are making steps to try to improve the 
coordination and collaboration through structural changes at 
the state.
    But this is happening because states recognize this 
problem. I don't see any reasonable alternative to really 
collaborating and coordinating than for states to take the 
initiative and to make sure this happens at the state level.
    So you have under reauthorization of Head Start an 
opportunity to offer a few states the option of managing Head 
Start program within their state, whether it is called an 
experiment, a demonstration or whatever. This should be an 
opportunity for states to fulfill this role of providing true 
coordination across the different service provider sector.
    But there are some dangers in this. The experiments have to 
be carried out carefully. You have heard here already that 
there is not a problem with state pre-K programs meeting the 
Head Start standards so you should maintain the standards. Do 
not give up on those standards. There may be some minor ways 
that states are allowed some flexibility but the basic core 
standards need to be kept in place. States must agree to an 
evaluation, as Dr. Barnett said, this won't do us any good 
unless we have a very thorough and careful evaluation of the 
implementation of this and a major part of that, as he said, is 
a sound data collection system that let's us know actually how 
many children are being served, how many are getting which 
service.
    So I applaud your attempts to bring together the various 
parts of the early childhood system and to integrate Head Start 
into such a larger system. You can help lead us toward a more 
rationale system of services for young children.
    Thank you.
    [The prepared statement of Mr. Clifford follows:]

 Statement of Dr. Richard M. Clifford, Senior Scientist, Frank Porter 
          Graham Child Development Institute, Chapel Hill, NC

    Good morning, my name is Dick Clifford and I am a researcher at the 
FPG Child Development Institute, University of North Carolina at Chapel 
Hill. My testimony represents my own personal views and does not 
necessarily reflect the positions of my organization or the various 
public and private agencies that support my work. I study young 
children and programs to support these children and their families. I 
am co-director of the National Pre-kindergarten Center at FPG 
(supported largely by the Foundation for Child Development). I served 
as Principal Investigator of a large-scale study of pre-kindergarten 
programs in 6 states, supported by the US Department of Education, and 
am currently co-director of a follow-up study of pre-kindergarten 
programs in 5 additional states (with support from the Pew Trusts 
through the National Institute for Early Education Research). Together 
these 11 states serve about 80% of the children in state sponsored pre-
kindergarten programs in the US. So, I've had extensive opportunities 
to see how states are working to improve readiness of children coming 
to school. In the 1990's I took a leave of absence from the University 
to work in state government in North Carolina to help design and 
implement Governor Jim Hunt's major early childhood initiative, called 
Smart Start. In this role I had an opportunity to work first hand at 
encouraging the various agencies serving young children to work 
cooperatively to improve services for all children from birth up to 
school entry.
    The task you are addressing is a difficult one. Some time ago I was 
asked to describe the early childhood services in the US at a 
conference in central Europe. I entitled my paper, Parallel Play. I did 
this because at the time, our diverse set of service providers--Head 
Start, Child Care, Early Intervention for young children with 
disabilities, and more traditional preschool programs--each mostly went 
their own way with little cooperative effort, occasionally interacting 
when there was a problem. That was in the 1990s. Since then governments 
at all levels in the US have dramatically increased their investments 
in early childhood services, yet we still have only minimal formal 
coordination of efforts in most states.
    Let me give a single example relating to Head Start and state pre-
kindergarten programs. Both of these programs have as a major goal 
improving the readiness of children for school. In most of the states 
children who are from low income families, or are otherwise at risk for 
school failure, are targeted for services in the pre-kindergarten 
programs, just as in Head Start. One would expect that there would be 
close cooperation and coordination between these programs. In fact Head 
Start providers would normally be thought of as major sources of 
provision of services for the state pre-kindergarten programs since 
nearly all of these programs use both public school as well as private 
service providers to deliver the pre-kindergarten services to target 
families. Yet in our 11 states our data show that only 15% of the 
classes were in Head Start programs. Only two states had any major 
involvement of Head Start in the pre-kindergarten program. The 
remaining states had extremely low participation rates by Head Start 
providers.
    As a state administrator in North Carolina I found linking our 
Smart Start initiative with Head Start was quite difficult. As you 
know, Head Start is funded and administered by the federal government 
through its national and regional Head Start offices in Health and 
Human Services. While the federal government provides support for 
states for a small office designed to help foster collaboration, these 
offices have no authority over the Head Start providers, so all 
decisions about expansion of Head Start programs, standards, and all 
formal oversight of Head Start is handled through the regional and 
national offices. On the other hand, such decisions for child care, 
early intervention and preschool programs are mostly made at the state 
and local levels. In fact this system makes it very difficult for 
states trying to create a more unified system of services for families 
with young children to truly coordinate these services.
    Another factor is becoming increasingly important in this equation. 
More and more schools are involved in providing services to children 
prior to the traditional age of entry to kindergarten. In a review we 
conducted at the end of the 1990's, we estimated that nearly a million 
children were in school-based programs earlier than kindergarten 
entrance. Most of these children were starting a year before they would 
start kindergarten, that is, they were about four years old. There are 
about 4 million children per age group in the US, so this means about a 
fourth of all children now are starting school early. So, public 
schools have become a new major player in this field.
    We are starting a new initiative at UNC-CH that we are calling 
First School. In this program we are developing a joint project with 
our local school system to establish a model program for children from 
about ages 3 to 8 years that will provide a seamless transition from 
the preschool period to early school for young children without forcing 
very young children into the more traditional and structured school 
organization. Building upon this new model of how schools can be 
organized to serve younger children we will provide assistance to local 
and state agencies struggling with how to fit the needs of very young 
children into the traditional school models.
    In 2003, the Office of Management and Budget estimated that federal 
and state expenditures on preschool and child care programs were some 
$24 Billion. On the table at the end of my remarks I show the specifics 
for North Carolina at about the same time period. You can see that just 
for our state, total expenditures from state and federal sources for 
early childhood services were in excess of $ 760 Million in 2002-03. 
While Head Start is a major source of support of such programs, it is 
by no means the dominant source at this point in time. As state 
governors and legislators seek to make the most efficient and effective 
use of limited resources they are naturally concerned that services not 
be duplicated, that funds are used in a way that maximizes the impact 
on children and that all appropriate uses of various sources of support 
are brought to bear on the issue of helping children come to school 
ready to succeed.
    It appears that the problems in integrating services for young 
children are more tied to organizational and structural issues than to 
any one simple set of standards or rules. There is no clear message of 
who is in charge or whose job is this anyway. A few states are trying 
to address this situation. Georgia has recently consolidated many of 
the early childhood services under a new state agency--the Georgia 
Department of Early Care and Learning. It is responsible for overseeing 
child care and educational services for Georgia's children ages birth 
through four and their families and includes the state's large pre-
kindergarten program. Massachusetts is also working to establish a new 
overarching agency in charge of all early childhood services. North 
Carolina is also looking at ways to improve the overall coordination 
and efficiency of service delivery.
    The reauthorization of Head Start offers a wonderful opportunity to 
offer a few states the option of managing the Head Start program within 
their state as part of this overarching early childhood system. Only 
states that are far along in the process of developing a true system of 
services for young children and their families should be chosen to be 
part of this experiment. This experiment should be carried out 
carefully and evaluated thoroughly to provide guidance for a long term 
plan to assist states in providing the best services for their 
citizens. There are a number of key issues that should be considered in 
the legislation authorizing such trials. Many of these were covered in 
the legislation considered last year, but I would highlight a few. 
States chosen must demonstrate that they have the commitment to long-
term system improvement. Formal state plans for implementing the goal 
of developing a true system of services must be required as part of the 
application by states to participate in the experiment. States must 
commit to maintaining or expanding state expenditures. The standards 
set for Head Start programs at the federal level should be maintained 
or strengthened under the state oversight, although some modifications 
of the standards to fit the individual state circumstances should be 
allowed. These modifications should not be allowed to have the effect 
of weakening the standards. Current Head Start grantees must be 
provided with assurances that they will continue to be grantees under 
the state oversight with only exceptions for clear violation of 
standards or other breeches of contractual requirements. States should 
be required to show how they would integrate the Head Start providers 
into the overall state plan. States should be required to report 
annually on progress in meeting the state plan and to propose any 
needed modifications to the plan. States should be required to submit 
regular reports on child and family services and their impact.
    States must agree to participate in a careful evaluation of the 
effort. Currently there are few formal requirements for submission of 
data on children and families served or the nature of services. Because 
each agency currently has its own reporting system it is impossible to 
get a clear picture of how many children are receiving services or how 
many services individual children are receiving. As part of the 
evaluation of the experiment, a comprehensive data system should be 
established providing information on all services received by children 
and families under the approved state plan. States in the experiment 
would be required to implement use of the data system, with the goal of 
eventually requiring the data system for all states.
    I applaud your attempts to bring together the various parts of the 
early childhood system and to integrate Head Start such a larger 
system. Thank you for the opportunity to address the committee.

[GRAPHIC] [TIFF OMITTED] T0780.002

                                 ______
                                 
    Chairman Castle. Thank you, Dr. Clifford.
    Ms. Blank.

  STATEMENT OF HELEN BLANK, DIRECTOR OF LEADERSHIP AND PUBLIC 
      POLICY, NATIONAL WOMEN'S LAW CENTER, WASHINGTON, DC

    Ms. Blank. Good morning, Mr. Chairman, Members of the 
Committee, I am pleased to have the opportunity to testify 
today. I am going to address three issues, how local 
communities and states are already effectively collaborating, 
remaining barriers to collaboration, and how the Head Start 
reauthorization can address these challenges. Programs must 
address twin goals embedded in Federal policy, they have to 
help children enter school ready to succeed, and they have to 
help parents work. These goals must be achieved by requiring 
programs to meet the highest standards.
    Head Start, pre-K, and childcare programs are already 
working together in many communities. Their collaborations do 
not necessarily provide resources to serve additional children 
but they do help programs respond to the needs of children and 
families. Most pre-K programs are part day, some operate for 
only as few as two-and-a-half hours. Many states combine pre-K 
dollars with Head Start funds for a longer day.
    In La Crosse, Wisconsin, a Head Start program in an 
elementary school enrolls children in the state 4K program for 
half a day and Head Start for half a day. Teachers have joint 
planning time, share lunch with the children, and funds are 
commingled. Other Head Start children in the community are 
bused to a pre-K site after their Head Start day.
    States are layering Head Start and pre-K dollars to 
strengthen components of each program. A California school 
district grantee combines Head Start, state pre-K, Title I, and 
state First Five Early Childhood funds to create a full day 
with comprehensive services. In New Jersey, Head Start programs 
use pre-K funds to hire bachelor degree teachers.
    In many communities, Head Start is offered in child care 
settings. This is especially important in rural communities 
where it is challenging to meet Head Start's enrollment 
targets. In rural Iowa, Head Start contracts with community 
childcare centers and public school programs for Head Start 
slots in their existing classrooms because there simply are not 
good services in these areas.
    Programs are working together to recruit children. States 
with the will have demonstrated that they can bring funding 
streams together. Maryland and Oregon have formal agreements 
that facilitate collaboration. While Illinois includes 
collaboration as one of six required components for new pre-K 
programs.
    While there are countless examples of programs working 
together, pre-K, childcare, and Head Start policies, as well as 
funding constraints, still create barriers that limit the 
quality and duration of services to children and families. 
First, state pre-K funding is not stable. Ohio had invested 
$100 million in state funds and was reaching every eligible 
Head Start child. State funds were replaced with TANF dollars, 
which have now been moved out of Head Start.
    This lack of constancy has wreaked havoc on programs. Worst 
yet, it has left up to 18,000 of Ohio's poorest children 
without the benefit of Head Start. While funding for North 
Carolina More at 4 Program has grown, it has been at the 
expense of the state's early childhood, much-acclaimed Smart 
Start program. Most states don't offer children and families 
Head Start's comprehensive standards.
    A third barrier is the quality of state pre-K programs. A 
recent six state study by the Frank Porter Graham Child 
Development Institute found that the quality of pre-K programs 
was lower than the quality of Head Start in childcare 
classrooms assessed in other studies. It also found that low-
income children made only small gains during the pre-K year.
    Florida's recently enacted universal pre-K program only 
includes a child development associate credential, not even the 
Head Start requirement for AA degrees for teachers, let alone 
BA degrees. Programs who are collaborating across the country 
believe that one of the most significant barriers to 
collaboration is state childcare policies which inhibit us from 
putting together a seamless early childhood system. State 
waiting lists for childcare assistance are growing. Florida has 
over 46,000 children, North Carolina almost 25,000, Texas, over 
26,000. Expecting more childcare funds to be used for pre-K 
given these waiting lists just does not add up, especially when 
only 13 percent of childcare funds are allocated for 4 year 
olds.
    Eligibility for childcare assistance is based on the 
parent's work status. If a parent loses their job or makes a 
small step up the pay ladder, the child is still eligible for 
Head Start or pre-K but is expelled from child care. This make 
programs reluctant to coordinate with childcare funds since the 
potential that they will lose childcare funding in the middle 
of the year makes it difficult for them to budget. Childcare 
reimbursement rates limit collaboration. Some states pay on an 
hourly basis. Providers serving Head Start or pre-K children 
for a portion of the day must reserve a full time slot for a 
child without getting full time reimbursement, yet the program 
has to cover its staff and other operating costs for all the 
hours it is opened. Low child care rates undermine efforts to 
raise the quality of all early childhood programs.
    Thirty-seven states currently pay out-of-date rates. 
Missouri is not unusual. It bases its rates on what it costs to 
pay for childcare in 1991. These rates make it nearly 
impossible to hire qualified teachers and in some cases even 
purchase books and basic supplies.
    Overall, state child care licensing policies leave little 
room for quality. In 36 states a teacher can begin to work in 
the childcare center with no training in early childhood 
development. These low standards are why Head Start performance 
standards are so important.
    The Head Start reauthorization can strengthen 
collaboration. Programs that don't have waiting lists could be 
given more flexibility around the children they are serving. If 
some states are investing in high-quality programs and reaching 
all their 4-year-olds, Head Start programs should be required 
to serve 3-year-olds if they are not already doing so. When 
parents have their income increased slightly above the poverty 
line, Head Start should have the flexibility to serve their 
children who still need the benefits of Head Start. This would 
ensure that programs that have already invested in classrooms 
do not have several empty slots.
    Similar to provisions in the Child and Adult Care Food 
Program, the reauthorization could include a demonstration that 
allowed all children living within a low-income census tracked 
school district to participate in Head Start and child care 
without individual income eligibility determinations.
    While the research is clear on the effectiveness of early 
Head Start, Head Start programs could also be given the 
flexibility to move down to serve infants and toddlers. Another 
way to encourage collaboration is to target a portion of Head 
Start expansion funds within states with sizable pre-K programs 
and programs that collaborate with child care and pre-K 
programs.
    The provisions to encourage collaboration included in Title 
I of last session's House-passed Head Start bill should also be 
maintained and would help us come a long way. These new 
incentives and tools for collaboration should be put in place 
and allowed to demonstrate that it is possible to increase 
collaboration and coordination while retaining the bedrock 
principles of Head Start and its ability not only to serve as a 
national model for excellence in early education but serve as a 
national model of how we can meet the multiple needs of our 
lowest income children and families.
    Thank you.
    [The prepared statement of Ms. Blank follows:]

  Statement of Helen Blank, Director of Leadership and Public Policy, 
              National Women's Law Center, Washington, DC

    Mr. Chairman, members of the Committee, I am Helen Blank, Director 
of Leadership and Public Policy at the National Women's Law Center. I 
am pleased to have the opportunity to testify on collaboration and 
coordination efforts among early childhood programs.
    The reauthorization of Head Start should enhance and strengthen 
provisions for coordination and collaboration among Head Start, state 
prekindergarten, and child care programs in order to achieve critical 
national goals related to children and parents. All children should 
enter school ready to succeed. Meanwhile, parents should be able to 
work to support their children and have the resources they need to be 
their children's first teachers. The elements that are most essential 
are continued national leadership to ensure that Head Start can stay on 
its course of continuous improvement to enable our lowest income 
children to achieve their full potential and new investments to ensure 
that programs have the resources to do so.
    In order to achieve our goals for children, programs must be 
required to meet the highest standards. These standards should not be 
sacrificed for the goal of flexibility. Head Start standards have been 
higher and more comprehensive than other preschool programs. They 
require attention to literacy, math, science, arts, physical, social, 
emotional and other areas of children's development. The standards are 
rigorous. They are regularly monitored for compliance. They guide good 
teaching and assessment to improve the lives and readiness of children 
and the quality of programs.
    In order to achieve our goals for parents, programs must be able to 
respond to the needs of those who are working. Part-day, part-year 
programs are often inaccessible for parents struggling to support their 
children and become self-sufficient.
    Over the past several years, there has been a growing recognition 
of the importance of a high quality early education experience for 
young children with increased investments in state prekindergarten 
initiatives in a number of states. Unfortunately, with frozen federal 
child care funding, many states have simultaneously lowered child care 
eligibility criteria, raised parents'' co-payments, and lowered 
reimbursement rates to already low-paid child care providers and as a 
result diminished families'' access to early care and education.
    Coordination and collaboration are valuable objectives, but also 
very, very complex to achieve given the numerous goals that early 
childhood programs are expected to meet simultaneously. Head Start, 
prekindergarten and child care programs are already working together in 
many communities to meet these goals. However, they face numerous 
barriers, many of them resulting from state-level policies.
Ongoing Collaborative Efforts
    Leaders at the state and local level are already collaborating to 
use their Head Start, prekindergarten and child care dollars creatively 
both to bolster quality and to meet the needs of working families. Yet, 
these collaborations do not always stretch resources so that more 
children receive prekindergarten.
    Most state prekindergarten initiatives allow Head Start agencies to 
be eligible providers. Five state prekindergarten initiatives are 
identical or nearly identical to Head Start.
    Most prekindergarten programs are part day; some operate for as few 
as two and a half hours a day. State prekindergarten dollars are often 
combined with Head Start funds to provide a longer day or full year for 
children. In some cases, child care dollars are still necessary to 
extend the day until 5 or 6 p.m., when parents get out of work. 
California, Colorado, Connecticut, Iowa, Illinois, New York, Virginia 
North Carolina, South Carolina, Maryland, Texas and Wisconsin are among 
the states where local programs put Head Start and prekindergarten 
together. The Massachusetts prekindergarten program, Community 
Partnerships for Children, which is designed to strengthen existing 
programs serving three-and four-year olds, offers part-day programs 
funds to extend their day.
    In La Crosse, Wisconsin, one Head Start program operates in an 
elementary school. The majority of children in the state's 
prekindergarten program (4K) also qualify for Head Start. They are 
enrolled in the state 4K program for half a day and Head Start for half 
a day. Teachers have joint planning time, share lunch with the 
children, and funds are co-mingled. Other Head Start children in the 
community are simply bused to a prekindergarten site after their Head 
Start day and the only co-mingling of funds is for transportation.
    Iowa's Hawkeye Area Community Action Program adds funds from the 
state's Shared Visions prekindergarten program in eight classrooms to 
enable children to have a longer day. In other classrooms, Child Care 
and Development Block Grant (CCDBG) funds are used to extend the day. A 
state program that provides funds to local communities for children 
ages birth to five is used in seven other classrooms.
    In Central Los Angeles, the University of Southern California pairs 
Head Start and state prekindergarten dollars to put together an eight-
hour day for children in one location. In another location, responding 
to the lack of facilities in urban areas and the need for care for 
parents working long hours or varied schedules, the grantees keep a 
facility open from 7 a.m. to 9 p.m. using Head Start and child care 
dollars throughout the day.
    In Brooklyn, New York, Builders for Families and Youth and the East 
Side House bring together New York State prekindergarten dollars with 
Head Start funds to support a longer day.
    States are also melding Head Start and prekindergarten dollars to 
strengthen components of each program. In many states, state 
prekindergarten dollars are insufficient by themselves to ensure a 
quality program. Head Start dollars help to raise the quality of 
prekindergarten programs and allow programs to provide comprehensive 
services.
    Iowa's Hawkeye Area Community Action Program adds Head Start 
dollars to Shared Visions programs to enable these programs to provide 
Head Start's comprehensive services.
    A California school district grantee combines Head Start, state 
prekindergarten, Title I, and state First Five early childhood funds to 
create a full day with comprehensive services.
    In Tulsa, Oklahoma Head Start dollars are used in state 
prekindergarten programs to support comprehensive services.
    State prekindergarten funds are also enabling Head Start programs 
to have teachers with a Bachelor's degree in their classrooms, 
particularly when the state prekindergarten program requires teachers 
to have this credential. Wisconsin, New Jersey, Texas, Oklahoma, and 
New York are among states that use this approach. In Oklahoma, the 
public school generally hires the teachers who then work in Head Start 
programs. Teachers are school employees, and the school district 
ensures that the teacher meets all standards and receives the same 
compensation as teachers working in schools.
    In New Jersey, Head Start programs in Abbott districts--the state's 
30 highest poverty districts mandated by the New Jersey Supreme Court 
to provide children a high quality preschool education--are eligible 
for Abbott prekindergarten funds to enable them to hire teachers with a 
Bachelor's degrees.
    Programs have also developed joint approaches to recruit children 
or ensure that services are not duplicated. In La Crosse, a 
Collaboration Committee meets once a month with representatives of Head 
Start, child care and prekindergarten programs. If Head Start has a 
waiting list, it directs families to the state's prekindergarten 
program. Head Start and the public schools also do collective 
recruitment and give parents information about all available programs.
    In many areas of Washington State, one part of the district is 
served by the state's prekindergarten or ECEAP program (which is 
similar to Head Start) while the remainder is served by Head Start.
    Head Start programs in states such as Ohio, Pennsylvania, Virginia, 
Alabama, Michigan, New York, Texas, Washington State, Maryland, 
Minnesota, and Iowa have provided children with a full-day experience 
and brought Head Start's comprehensive supports to children in child 
care by offering Head Start in child care settings. This model is 
especially important in rural communities that find it challenging to 
meet Head Start's enrollment targets.
    In rural Iowa, a Head Start program contracts with community child 
care centers and public school programs for part-day Head Start slots 
in existing classrooms.
    Community Services for Children, in Bethlehem, Pennsylvania brings 
Head Start to child care classrooms accredited by the National 
Association for the Education of Young Children (NAEYC). The agency 
provides funding to help child care classrooms meet developmentally 
appropriate requirements, offer comprehensive services to children and 
families, and training for child care teachers. Brooklyn's Builders for 
Families and Youth and East Side House also have innovative 
collaborations with local child care programs.
    While most collaboration occurs on the ground at the local level, 
several states have formal agreements to facilitate collaboration.
    Maryland has an overarching Memorandum of Understanding (MOU) at 
the state level between the state Department of Education and the state 
Head Start Association guiding local MOUs between local Head Start 
grantees and the LEAS. Its purpose is for programs to work together 
effectively to improve outcomes and provide opportunities from children 
birth through five to achieve school success, to promote collaboration 
among the parties and their local counterparts and to encourage and 
support the development of local and/or regional agreements between 
public school systems and Head Start programs. The state MOU involves 
joint planning, staff development, curriculum, articulation, 
transition, and recruitment.
    Oregon's Department of Education and the Regional Head Start office 
have a MOU facilitated by the Head Start Collaboration Project to 
implement a seamless system for the administration of the state 
prekindergarten and Head Start program that involves joint monitoring, 
joint guidance and regulation interpretation, coordination and sharing 
of training, coordination of calendars and events, coordination of 
funding and service areas, joint planning for federal and state 
initiatives, and joint problem solving.
    Illinois, which recently significantly increased funding for 
prekindergarten, includes collaboration as one of six required 
components for new prekindergarten programs.
    While there are countless examples of programs working together, 
there are still barriers inherent in state and federal policies that 
limit the quality and duration of services to children.
Barriers to Collaboration in State Prekindergarten Policies
    Despite an increase in the number of states that offer 
prekindergarten, the bulk of funding is still concentrated in ten 
states.\1\ Eleven states have no prekindergarten initiative and others 
have very small programs.\2\
---------------------------------------------------------------------------
    \1\ W. Steven Barnett. Jason Hustedt, Kenneth Robin, and Karen 
Schulman. The State of Preschool: 2004 State Preschool Yearbook 28 
(2004). Florida enacted a state prekindergarten program in December, 
2004.
    \2\ Id at 24.
---------------------------------------------------------------------------
    State funding is not always stable. Ohio once made an impressive 
commitment to provide Head Start to every eligible child. Its state 
Head Start funds gradually were replaced with TANF dollars and 
currently the state, after a series of programmatic changes, moved its 
TANF dollars out of Head Start. This lack of constancy has wreaked 
havoc on programs that had expanded to meet the demand for more Head 
Start slots. Worse yet, it has left thousands of Ohio's poorest 
children without the benefit of Head Start. While funding for North 
Carolina's More at Four program has grown, it has been accompanied by a 
steady decrease in the state's Smart Start program which provides 
supports for children ages zero to five and their families.\3\ In 2003, 
funding for prekindergarten decreased in 21 states.\4\
---------------------------------------------------------------------------
    \3\ Id at 50.
    \4\ Id.
---------------------------------------------------------------------------
    Most states do not offer children and families the comprehensive 
standards that characterize Head Start. Twenty state prekindergarten 
programs do not require that any meals be served to children.\5\
---------------------------------------------------------------------------
    \5\ Id at 44.
---------------------------------------------------------------------------
    Although some state prekindergarten is of high quality, there is 
significant variability and some state prekindergarten programs have 
considerable room for improvement. A recent six-state study by the 
Frank Porter Graham Child Development Institute found that the quality 
of prekindergarten programs was lower than would be anticipated, and 
quality was lower than the quality of child care and Head Start 
classrooms assessed in other studies.\6\
---------------------------------------------------------------------------
    \6\ Donna Bryant, Dick Clifford, Diane Early, and Loyd Little. 
Early Developments: NCEDL Pre-kindergarten Study. (2005).
---------------------------------------------------------------------------
    Florida, which recently enacted a universal prekindergarten 
program, only requires teachers to have a Child Development Associate 
(CDA) credential--no higher education at all. In contrast, Head Start 
has met the goal that Congress set out in 1998, for half of all Head 
Start teachers to have an Associate's degree. Last year's House bill 
raised the goal to Bachelor's degrees. The low teacher standards of 
many state prekindergarten programs highlight how important it is that, 
when facilitating increased coordination, all programs be required to 
meet the highest standards.

Barriers to Coordination in Child Care Policies
    The crisis in child care funding and low child care standards 
create a great danger that coordination will mean lowering standards 
rather than raising them. State child care policies are one of the most 
significant barriers to collaboration. Many families do not have access 
to help in paying for child care because of long waiting lists and/or 
low eligibility cut-offs for child care assistance. As of early March 
2004, Florida had over 46,000 children on their waiting list, North 
Carolina almost 25,000, Tennessee 23,000, Texas over 26,000, and 
California over 200,000.\7\
---------------------------------------------------------------------------
    \7\ See National Women's Law Center, Child Care Assistance Policies 
2001-2004: Families Struggling to Move Forward, States Going Backward 
(2004), available at http://www.nwlc.org/pdf/
childcaresubsidyfinalreport.pdf (last visited Mar. 29, 2005) 
[hereinafter Child Care Assistance Policies].
---------------------------------------------------------------------------
    Another barrier to coordination is that, unlike, Head Start and 
state prekindergarten, eligibility for child care assistance is based 
on a parent's work, education, or training status, not the 
developmental needs of their children. If a parent loses their job, is 
between jobs, or experiences a modest increase in income, their child 
while still eligible for Head Start or state prekindergarten, may be no 
longer eligible for child care assistance and programs serving their 
child can no longer receive those funds. This can make programs 
reluctant to coordinate Head Start and or state prekindergarten dollars 
with Child Care and Development Block Grant funds, since the potential 
they will lose CCDBG funding in the middle of the year, makes it 
difficult for programs to budget and to ensure children an undisrupted 
learning experience. Since early childhood programs operate on very 
tight margins, they do not have the resources to cover the costs that 
were previously paid for by child care funds.
    California has created another barrier for working parents by 
precluding programs from using state prekindergarten dollars with child 
care dollars.
    Child care reimbursement rate policies also limit collaboration. 
Some states pay on an hourly basis, only reimbursing providers for 
those hours during which care was provided. This can create a problem 
for providers who are serving Head Start or prekindergarten children 
for a portion of the day. They must generally reserve a full-time slot 
for a child without getting full-time reimbursement. Yet, the child 
care program must cover its full staff and other operating costs for 
all of the hours it is open.
    Low child care reimbursement rates not only limit collaboration but 
also undermine the efforts to raise the quality of all early childhood 
programs. Thirty-seven states currently pay rates based on outdated 
market rate surveys. In some states rates are particularly low Michigan 
still bases its rates on 1996 prices and Missouri's rates for 
preschool-age children are based on 1991 levels.\8\ These rates make it 
nearly impossible to hire qualified teachers and in some cases purchase 
books and basic supplies.
---------------------------------------------------------------------------
    \8\ Id.
---------------------------------------------------------------------------
    Overall state child care licensing policies leave little room for 
quality. In 36 states, a teacher can begin in working in a child care 
center with no training in early childhood development. Only 10 states 
meet national experts'' recommendations for class size and child-staff 
ratios.\9\
---------------------------------------------------------------------------
    \9\ National Child Care Information Center. (2004). ``Child Care 
Licensing Regulations (February 2004): Child: Staff Ratios and Maximum 
Group Size Requirements.'' Vienna, VA: National Child Care Information 
Center at http://nccic.org/pubs/ratios.odf, compiled from licensing 
regulations posted on the National Resource Center for Health and 
Safety in Child Care website at http://www.nrc.hchsc.edu
---------------------------------------------------------------------------
Barriers to Coordination in Head Start Policies
    Head Start's eligibility cut-off at the federal poverty level is 
lower than all federal and state- funded child care programs as well as 
many state prekindergarten programs. This makes it challenging to bring 
together children in the same classroom.
    Another barrier is the differences in teacher credential 
requirements among programs. Half of all Head Start teachers are 
currently required to have a minimum of an Associate degree in early 
childhood. If this requirement was changed to a Bachelor's degree in 
early childhood, it would make it easier for Head Start programs to 
collaborate with prekindergarten in those states that required similar 
degrees.

Head Start Reauthorization
    There are ways within the Head Start reauthorization that 
opportunities for collaboration and coordination could be strengthened.
    Head Start programs need more flexibility around the population 
they serve. If Head Start programs have a waiting list, they need funds 
to serve more eligible children. Programs that do not have waiting 
lists could be given more flexibility to respond to the needs of 
children and families in their communities and to collaborate with 
prekindergarten. Given the research about the importance of reaching 
children early, if states are committed to investing in high quality 
programs for four-year olds, Head Start programs should be required to 
serve three-year olds if they are not already doing so.
    If more parents have increased their incomes slightly above the 
poverty line after they have gone into the workforce, Head Start should 
have the flexibility to serve their children who still need the 
benefits of Head Start. This would ensure that programs that have 
invested considerable resources in establishing quality classrooms 
would not have several empty slots. Similar to provisions in the Child 
and Adult Care Food Program related to family child care, the 
reauthorization could include a demonstration that allowed all children 
living within a low-income Census tract or school district to 
participate in Head Start without requirements for individual income 
eligibility determination.
    With the research clear on the effectiveness of Early Head Start, 
Head Start programs could also be given the flexibility to move down to 
serve infants and toddlers.
    Another way to encourage collaboration is to target a portion of 
Head Start expansion funds within those states with sizable 
prekindergarten programs on programs that collaborate with child care 
and prekindergarten programs.
    A number of positive changes around state planning, state training 
offices that allowed professional development across all sectors of 
early childhood, state collaboration grants, joint unified planning on 
school readiness standards, strategic plans for outreach included in 
Title I of last session's House-passed Head Start bill would also 
further enhance collaboration and coordination. Increased teacher 
requirements included in last session's bill would greatly increase 
collaboration as well. However, this cannot be accomplished without 
additional investments to address teacher education and compensation in 
order to attract and retain teachers with higher qualifications.
    These new incentives and tools for collaboration should be put in 
place and allowed to demonstrate that it is possible to increase 
collaboration while maintaining the core of Head Start and its ability 
to serve as a national model for excellence in early education.
                                 ______
                                 
    Chairman Castle. Thank you, Ms. Blank. And I thank all the 
witnesses again. And I will lead us off, and I yield myself 5 
minutes. I don't know what to really ask here because I want a 
solution that could take any one of you 5 minutes to answer. So 
you are going to have to sort of help me with your answers.
    But the history of what we have done here on this 
reauthorization, the history of this is sort of interesting. 
Head Start has basically doubled in its funding in the last 10 
years, which is maybe 10 percent a year on average. And it is 
still to some degree insufficient. It is not block granted and 
that has not really been suggested per se. There was a 
suggestion of changing departments and that was rejected.
    We wrote a bill last year which I think it is fair to say 
the first section, which is most of the bill actually, we 
pretty well agreed upon which had stricter standards and 
certainly Ms. Woolsey and Mr. Miller and others thought those 
were all sound ideas. Then we got into the second part, which 
was allowing eight states on a pilot basis to be able to do 
what has been actually discussed here, to integrate their 
programs more than are done now. And that created animosity and 
opposition from the Head Start Association and unfortunately 
calls for a very divided House of Representatives, even though 
we passed it in the House, it never went forward in the Senate 
and never became law.
    We have to deal with that problem again this year. A lot of 
you are sort, in fact all of you I think in one way or another 
have touched on the fact that integrating these programs is a 
sound idea. There may be deficiencies. Ms. Blank pointed out 
that the state funding is not on a regular stream, for example, 
and I would agree with that. The quality of state programs 
maybe not as good or maybe higher in certain instances. There 
are states, like Georgia, which has really done a superb job I 
hear, and I believe that in terms of doing this, others perhaps 
have not. But, clearly, there are more states now providing at 
these age groups, particularly 4-year-olds, than ever did 
before.
    There seems to be, in my mind, more reason to have some 
sort of at least coordination in terms of what we are doing. 
But I am befuddled because I am don't know how to write the 
legislation that won't upset the Head Start providers who feel 
that they want their independence and yet will help us go 
further in terms of what we are doing.
    Some of you have sort of hinted at the fact that that can 
happen anyhow, perhaps it can. But I am interested in whatever 
it is that we can do in this legislation to further that. I am 
not interested in anything that is going to be destructive of 
Head Start. I am a strong provider--a strong supporter of Head 
Start in every way we possibly can. But to me we are missing an 
opportunity here and, quite frankly, I am not too sure that the 
opposition last year, and the young lady on my right was part 
of this, was completely on target, at least in terms of the 
purpose of what we are trying to do versus where we are today 
in Head Start. And I sort of hear all of you hinting at that.
    So you may not be familiar with the exact workings because 
a lot of you work generally in state programs or whatever but 
the exact workings of this legislation or how we can sort of 
bridge this gap that exists. But if you have any suggestions 
along those lines, I would be interested in hearing them. And 
part of it may be you don't need to do anything more, it is 
working. I don't know what you want to say, I just would like 
to hear from how many I can hear from in the next three or 4 
minutes.
    Ms. Moore. Thank you. In Georgia, I think the critical 
piece is to maintain those standards, those comprehensive 
standards. We are fortunate because we have a six and a half 
hour program. Our program has very high standards as far as the 
instructional part of our program. Also, I think it is 
important that we have the same maintenance of effort. That 
should be a part of the law as well, to make sure that less 
children are not served in high-quality programs but actually 
at least we maintain the level of children that are going to be 
receiving these services. Over 50 percent of our children at 
considered at risk, economically at risk children in our pre-K 
program.
    So in Georgia, as in many other states, we have children 
receiving different kinds of programs and different kinds of 
comprehensive services when they are actually the same 
children.
    So I think if legislation can be very clear to make sure we 
don't compromise those high standards and the number of 
children we serve that is already being served through Head 
Start, that is going to be critical to maintaining the sound 
principles of Head Start and ensuring states comply by that.
    Chairman Castle. Any other, anybody else want to speak? Dr. 
Clifford.
    Mr. Clifford. I would just like to add, just to reinforce 
my position that we need to try this in states. We need to have 
a few states in which we actually try to give the states 
authority to bring together all programs that serve children of 
this age. I think we will only have this true collaboration and 
coordination when the authority is clearly assigned to one 
level of government and one agency within state government.
    So I like the concept of giving the Governor authority to 
designate the lead agency in the state but you have to insist 
that that actually happen. You have to follow and evaluate 
carefully to make sure that these small number of states that 
you give the opportunity to try this are in fact complying with 
the intent of the law.
    Mr. Alexander. I believe in the state of Oklahoma for 
example I have proven, and if you read my written testimony, 
that collaboration does work and it is working without taking 
away the consistency and quality of reducing the performance 
standards. The performance standards must be maintained. That 
is our bottom line.
    Then, teacher qualification funds, if we could get that to 
raise the teacher's salaries, that would work tremendously 
across the nation. Maybe raise the income guidelines so that we 
can serve more and have opportunity to serve more in a higher 
population.
    But overall, I believe that these services don't 
necessarily need to go to a different state level because when 
you go to a state level or any other level besides Federal to 
local level, then you may lose funding at some point in there, 
that may not reach the needs of those children. That is a major 
concern that I have with it having another level in there.
    Chairman Castle. My time is--Ms. Blank wants to say 
something, I think, my time is going to be up. If I had a 
follow-up question, I may ask it later, it would be are you 
meeting resistance in terms of the collaborations you are 
talking about from the Head Start community at large or if you 
are not, how do you coordinate that collaboration and is it a 
fact that maybe we don't have to change anything in order to do 
this or is that just region by region or whatever.
    I think Ms. Blank wanted to say something on my original 
question, and then I will go to Ms. Woolsey.
    Ms. Blank. I think historically, if we look at early 
childhood programs at the Federal level, there is an enormous 
interest in driving down standards when states have access to 
the funds. We saw that in the discussion 2 years ago. We have 
certainly seen it in the history of the child care and 
development block grant. Remember, we serve the same children 
and we barely--Representative Castle, I remember you were 
instrumental in saving the minimal standards on CCDBG in 1996. 
I think the Head Start performance standards are very, very 
important for poor children. I don't think there are other 
agencies in communities that provide the kind of support that 
Mr. Alexander talked about that Head Start does.
    I think there are ways within the reauthorization to 
improve collaboration without changing the governance of Head 
Start. I don't think the states have yet shown, even the states 
that have the biggest investment in pre-K, that they are 
consistent in quality. Florida is going to be investing $300 
million in pre-K with a very, very low quality program. I don't 
think that we are there yet, but I do think that Head Start 
programs can be required to collaborate.
    I think we could expand and improve the provisions in Title 
I of the bill that you worked on last year. And I think we 
ought to look at where children are, who needs the services, 
and how we can help programs move around to be more flexible in 
terms of who they are reaching. And I think that can be done 
without changing governance.
    Chairman Castle. Thank you, Ms. Blank. Ms. Woolsey is 
recognized for 5 minutes.
    Ms. Woolsey. I am a total supporter of voluntary universal 
preschool and preschool in general, but not instead of Head 
Start. I see Head Start as serving a special population and 
serving it well, although not everybody who is eligible, as it 
should. And I see pre-K for kids like my grandchildren.
    My grandchildren have been read to since they were 2 or 3 
months old. When they enter kindergarten, they are going to 
know how to read, and they already do. It is amazing to me the 
opportunities these little children have because of their 
parents. I see Head Start as bridging that gap. And I know we 
know that is what it is about, so the needier enter 
kindergarten ready to learn at the same level as my children 
and grandchildren.
    So what is my concern with block granting to the states? We 
have experience with child care block granting. We have 
experience with IDEA. My state of California is good at taking 
Federal funds and supplanting with those funds instead of 
supplementing. And that is exactly what will happen to Head 
Start if we do that. We will take the emphasis, the focus off 
of Head Start. We will transfer it to the states, and we will 
lose that focus.
    That is my fear. That is why I am fighting block granting 
and will continue to fight it because I do not trust the 
states, including my own. So I am not going to ask a question 
on that but I just needed you to know that is where I am coming 
from on this.
    What we should be doing with Head Start I believe is 
looking at the level of education for the Head Start teachers, 
the pay. In Oklahoma, I believe, you told us that your 
preschool programs pay public school salaries, and for 4 year 
degrees. OK, how are we going to start that happening for all 
Head Start programs, for the needier, more challenged kids? And 
how are we going to expand those programs so that all eligible 
children can participate? And which would be more important, 
you are going to say more Federal funding, I know that answer. 
Which is more important, the 4-year degrees, expanding the 
program to all children that are eligible, and/or paying 
salaries that show the value of these children that these 
instructors are responsible for?
    I will start with you, Helen. You don't have to make a 
choice.
    Ms. Blank. Well, this is a challenging question because the 
House-passed bill did not include increases in Head Start 
sufficient to cover cost of living and the President's budget 
this year doesn't include a cost of living increase for Head 
Start. So it is hard to have this discussion to make a choice 
when it is not a real choice. It is hard to make a reform this 
way.
    I think it is important for Head Start to be on a path of 
improving qualifications for teachers. About half of states 
don't require B.A. degree teachers in pre-K and only 13 require 
them to have early childhood specialties. I think it is 
important but when we increase the--when Congress increased the 
requirement for teachers in the last reauthorization to A.A. 
degree, which was critical, they upped the quality set-aside 
for Head Start from 25 to 50 percent of new funds and they 
added significant funds. And with that funding Head Start was 
able to meet the goals of having 50 percent of all teachers.
    I think it is very hard because if you want teachers once 
they have their degrees to stay in Head Start, to do what 
Oklahoma does, they have to compensate them. Oklahoma is very 
fortunate because it is a state whose pre-K financing comes 
through a school finance formula, it is not general revenue. It 
is very hard to choose between quality and quantity. I think 
for many years we chose quantity in Head Start and that 
weakened the program.
    So I don't think we can continually increase the number of 
children being served without paying attention to quality. 
Maybe states are going to be making this huge investment in 
pre-K, although I think 21 states cut their investments in 
2003. We could urge them to have high quality and improve Head 
Start at the same time and put the programs together at the 
local level and serve more children. I don't think you can 
choose quantity over quality because in the end you won't be 
able to defend the kind of support children are getting. That 
is a little round about.
    Ms. Woolsey. Can I have one more answer? Let's go to the 
other end of the table, because I want to make sure you know 
that I am not questioning your dedication. I am from 
California, we have had quite an experience with IDEA and 
watching what our Governors, not just the current one, have 
done on this.
    Ms. Moore. Thank you for the opportunity to address this. 
In Georgia, we are fortunate. We have spent over $2.4 billion 
on Georgia pre-K program because one reason we have the 
commitment plus we have lottery and it is supported by lottery 
funds. Again, we see that we are continuously serving a lot of 
the Head Start children because of the high numbers of children 
who qualify for Head Start services. We are finding those 
children in our pre-K programs.
    We have a very similar program to Head Start, which is 
called a Resource Coordination Program which is like the family 
service worker. It is not quite as extensive, however we train, 
we blend our funds together, and we train these two different 
kind of programs that deliver social services to our at risk 
population. So we have the benefit received in Head Start and 
in our pre-K program.
    We have also been able to blend funds so that--Head Start 
pays for a 4-hour program. Georgia's pre-K program is a six and 
a half hour program. What we have done is blend our funds and 
Georgia pre-K program has paid for that two and a half extra 
hours where Head Start is paying for the 4 hours. In this past 
year, Georgia spent I think it was $720,000 to serve around 
4,000 to 5,000 extra Head Start children and that saved 
millions of dollars. So that was a benefit of our collaboration 
where we do believe we are serving more children, and we are 
serving that same population.
    Ms. Woolsey. But your funding stream through the lottery is 
dedicated to--
    Ms. Moore. Yes, it is dedicated to pre-K and Hope.
    Ms. Woolsey. So what happens if people actually stop 
playing Lotto?
    Ms. Moore. Well, actually, when times have been hard in the 
state of Georgia, we found that more people are buying lottery 
tickets. So I don't know, maybe we are a gambling state. But it 
has been to the benefit of education in Georgia, the lottery 
has.
    Ms. Woolsey. Can the state decide to use those funds in 
another way?
    Ms. Moore. Well, I think that could happen on the Federal 
level for Head Start and for states as well. It takes a 
legislative, a change in legislation in order to be able to do 
that.
    Ms. Woolsey. Thank you very much.
    Ms. Moore. Thank you.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Chairman Castle. Thank you, Ms. Woolsey. Mr. Osborne is 
recognized for 5 minutes.
    Mr. Osborne. Thank you, Mr. Chairman. I will try to be very 
brief and I am going to try to ask each one of you a question 
and so you will probably have to be brief too to get it in 
there, your answer in 5 minutes.
    First of all, Ms. Moore, you mentioned some differences 
between Head Start performance standards and Georgia state 
standards. How does the state resolve those differences?
    Ms. Moore. The way we resolve that whenever we blend our 
money is that we honor--of course, we expect them to meet the 
pre-K guidelines and when they are receiving Head Start funds, 
we honor the Head Start requirements. So a program that blends 
the funds for pre-K services have to meet those standards and 
that is how we have addressed that for our at risk population.
    Mr. Osborne. OK, thank you.
    Jeff, this is a little bit of a related question. 
Evidently, Oklahoma's pre-K program requires teachers to have a 
BA degree. And does Head Start require the same in Oklahoma, is 
it a uniform standard or what?
    Mr. Alexander. Specifically in the collaboration with 
public schools, the teacher must have a 4-year degree, in many 
cases, in early childhood. Now we are stretching that over into 
the Head Start specific centers also. And, yes, in I believe 89 
percent, if I am not mistaken, the last I checked, of all 
teachers, whether in public school collaborations or in the 
Head Start center have their 4 year degree at this point in 
time. And so we continue to strive to make that 100 percent.
    Mr. Osborne. That is pretty remarkable. I would imagine 
that is kind of hard to do.
    Mr. Alexander. It is.
    Mr. Osborne. Dr. Barnett, I note here that many low-income 
parents are choosing to send their children to the state pre-K 
program even though they qualify for Head Start in your state. 
Why are they choosing to do this? Why are they not choosing 
Head Start? And what effect is this having on Head Start 
enrollment in New Jersey?
    Mr. Barnett. I should start out by saying I don't have 
direct data so I haven't interviewed, surveyed parents about 
that. I can only make inferences from what we see. New Jersey, 
in large part because of the court order, has a program that 
entitles three and 4-year-olds in 31 of our districts with the 
highest levels of poverty to a high-quality free public 
education. The standards for that program are higher than the 
standards for any other program in the country, the spending on 
that program is twice, more than twice, almost three times the 
state average.
    So this is very atypical and it also provides, because it 
combines services with child care, up to 10 hours a day for a 
parent's working year, not just 180 day school year. And we 
have small classes, high standards for teachers, public school 
levels of pay, which is twice what the average Head Start 
teacher would get. These are very, very attractive programs for 
parents. You get a good education, you can have your child care 
needs met if you work. If you don't, if you don't need the 
extended day, there is no requirement to use it. And often the 
program will be closer to your home.
    Mr. Osborne. Well, I think that answers the question. 
Obviously, you are spending a lot more money than Head Start 
and it is a more intensive program. I didn't realize that so I 
appreciate your answer.
    Dr. Clifford, what are some of the child outcomes that you 
would expect to see from a better coordinated early childhood 
system. I know that Ms. Blank kind of pointed out some of the 
ways where there was cooperation and you pointed out there 
wasn't a whole lot of cooperation. So I am not sure, maybe you 
are both looking at the same problem from different angles. But 
what are some of the outcomes that you would expect to see from 
better coordination?
    Mr. Clifford. Thank you, Representative. To start with your 
question about outcomes we expect, we expect a whole wide range 
of outcomes, and we have looked at these in our studies, 
language, acquisition, mathematical skills, social skills, all 
across the board, all areas of development for young children. 
Those are the things we expect to see. And we do see those both 
in Head Start and in pre-K programs. We have looked at both of 
those. And Ms. Blank indicated that there were small gains in 
pre-K but I would just say that they are about the same level 
of gains in pre-K we see as what the Head Start studies show 
for Head Start. So we are not talking about vastly different 
gains in these programs.
    In terms of collaboration, there are problems from a Head 
Start provider's point of view of coming in and operating a 
pre-K program as part of the state pre-K effort because they 
are worried about serving two different masters here, the state 
and Federal regulators, both then are examining them in detail 
and it just adds another level of risk for them. So if they can 
be clear about who is in charge of early childhood services in 
their state, that will simplify and facilitate their 
willingness to come and be part of a comprehensive pre-K 
program for the entire state.
    If I could take 1 second and respond to comments that 
Representative Woolsey made, is that appropriate, Chairman?
    Chairman Castle. Yes, it is.
    Mr. Clifford. I think an issue I have is your comments 
about wanting your grandchildren served in pre-K and wanting 
also low-income children served in Head Start raises a serious 
question for me. In our K through 12 system, the Supreme Court 
has ruled that separate and equal is not a viable option. And I 
do worry that if we think about Head Start as something other 
than part of a single system in the state for serving children, 
as we move toward universal voluntary pre-K programs, the Head 
Start children will end up not being in those programs and 
being systematically separated from their peers who have more 
advantages. And I think that has serious long-term problems as 
we develop a system of services for all children in our state.
    Ms. Woolsey. May I respond, Mr. Chairman?
    Chairman Castle. A brief response is in order, and then we 
will go on to the next Member.
    Ms. Woolsey. Well, here is the thing. Head Start is 
separate because there is a whole menu that goes along with the 
Head Start child that is necessary to bring that child up to 
the level of entering kindergarten ready to learn. There are 
many kids, for example, who go to preschool, go to child care, 
who need to be taken care of and learn day in and day out but 
they are starting with a disadvantage.
    Head Start bridges that disadvantage. If we lose that, we 
will be making a huge mistake. I am not trying to separate kids 
out. I think the Head Start kids need a better education than 
my preschool grandchildren because they are going to get it at 
home too.
    Chairman Castle. Thank you. We will now go to Mr. Kind.
    Mr. Kind. Thank you, Mr. Chairman, and thanks for holding 
this hearing today. I want to thank each of our witnesses for 
your testimony and your unique perspectives because 
conversations like we are having today, hearings that we have 
been having in regards to Head Start reauthorization is very 
important because I think the verdict is in, the studies are 
there, and we know the importance of quality early childhood 
education programs and what that means and the difference of 
these kids' lives and their performance level once they start 
their formal K through 12 education. And yet sometimes we feel 
like we are pushing this rock uphill in regards to the real 
commitment and the investment of the youth of this country. And 
again, it is reflected in what the President was requesting in 
his budget in trying to hold Head Start funding level yet 
again. They claim they can make up in regards to the quantity 
shortfall but only by cutting back on technical assistance and 
training program funding, and I don't think that is the area 
that we should be going in order to address a potential 25,000 
student shortfall with level funding that is proposed in the 
administration's request.
    And I agree with you, Ms. Blank, we can't get into this 
Draconian choice of quantity versus quality because they are 
both very, very important.
    And there are some model programs throughout the country, 
and I am very proud in representing an area in western 
Wisconsin that have done a wonderful job in regards to 
integration and collaboration efforts. And, Ms. Blank, you 
referenced the one Head Start program in my hometown of La 
Crosse, Wisconsin, I think is a classic example of how hard 
they have worked to integrate.
    But what has made that as successful as it has been is how 
comparable the standards have been at the local level with the 
Head Start programs. And I think what we may see in regards to 
the future success of further integration and collaboration is 
the temptation for harmonization of standards at the state or 
school board level with the Head Start standards. And the 
question then becomes are we going to be harmonizing upwards or 
downwards?
    And I think that is where the concern lies with many of us 
on the Committee because if we see this harmonization 
downwards, as we are starting to see in various states, that is 
going to be a problem. And I think that has been one of the 
major stumbling blocks in regards to the reauthorization of 
this bill.
    And I am not sure how we can go about doing it. I have 
introduced legislation the last few years, and I am hoping to 
get a little more bipartisan support, that would establish a 
Federal incentive grant program for states that want to move 
forward with pre-K education opportunities. There is a vast 
inconsistency from not just state to state but school district 
to school district in regards to offering pre-K, the quality of 
pre-K, the level of funding, and the type of people, the 
talent, that they are trying to attract into these programs.
    And I think if we are going to be successful in enhancing 
the quality of these programs, it does come down to economic 
consideration. And that is what type of salary you are willing 
to pay, what type of training you are willing to provide, what 
type of message we are going to send as a nation. Therefore, if 
we are going to value the type of investment we need to make 
and that is how we are going to best attract the type of talent 
that we want to see working with these kids at an early age.
    And I just throw it open to any of you, if you have any 
type of perspective or response in regards to the harmonization 
that we may see continue in regards to the collaboration or the 
integration of pre-K and Head Start programs throughout the 
country. In some areas they are doing it very, very well, in 
some states, and we have heard testimony to that effect today. 
But, again, the concern that many of us have in this regard is 
whether we may see a weakening of the Head Start standards in a 
race to the bottom just to offer the citizens that they are 
doing something but maybe it won't ultimately be in the best 
interest of these children. Does anyone care to respond?
    Ms. Blank. I think that when we talked about it before, I 
addressed my concern that once you open this up and you have 
lesser standards in states, there is enormous pressure to allow 
flexibility that eventually take apart the Head Start 
standards. And while they look complex, I think they are 
important. There has been some discussion about we don't need 
health because children now have access to Medicaid and SCHIP 
but we know that access to health insurance for poor children 
may not get them services. We have Head Start programs that 
drive 100 miles so children can see a dentist or they make sure 
that children see providers. There are extra steps that are 
really critical and that is why you need the detail and the 
performance standards.
    And it is difficult in a time of scarce resources not to 
create a rush to move more to the middle. And that is not where 
we need to be to make sure our children, our poorest children 
succeed.
    Mr. Kind. And I know you also mentioned the Florida 
example, for instance, and what is happening there with they 
stepped up in investment but maybe at the expense of the 
quality too that is being offered. And we need to work through 
this. I think it is vitally important because there clearly has 
been a trend that we have seen for some time, and we have an 
opportunity with reauthorization of the bill.
    So I would encourage you that if you have further thoughts 
or suggestions that you get in touch with us and see if there 
is some way that we can work this out before it starts moving 
along.
    Thank you. Thank you, Mr. Chairman.
    Chairman Castle. Thank you, Mr. Kind. Mrs. Davis is 
recognized.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman. Thank you 
to all of you for being here. I wonder if you could talk a 
little bit about evaluation and assessment as you see it and 
how as we bring, as some programs are brought together in 
states how you are pulling out or I guess teasing out in terms 
of the data, how we are having at least, where the base data is 
and then how we are building on that because part of the 
problem that we often have is one of really understanding what 
is going on.
    And making, if the states in fact are doing some 
experimentation with collaboration, whether we know what 
accountability measures are in place that are working and which 
in fact are not. Because in reality we don't have a lot of 
accountability measures, do we, in the Head Start program, 
certainly not using the leverage of funding. Programs are 
getting funding whether we know a lot about what they are doing 
or not. They are setting up their standards but we are not 
necessarily pulling out funding because they are not meeting 
those standards.
    Am I correct in that? Have you seen programs where that is 
happening to a greater extent?
    Ms. Blank. Well, Head Start programs that are seriously 
deficient are de-funded. In the past several years, there have 
been close to 150 programs who have lost funding, and there was 
a hearing on this several weeks ago. No one wants a program 
that is not doing right by children to continue in their 
communities and they should be replaced as members agree 
immediately.
    There is a significant debate and my colleagues, Dr. 
Clifford and Dr. Barnett can talk about this as well, around 
how we should be assessing children. And there is some concern 
with the national reporting system that it is inappropriate. 
Head Start programs do assess their children three times a year 
to improve teaching practices, and we do an extensive 
monitoring of Head Start programs that need some improvement as 
has been discussed.
    But Head Start has the most exhaustive monitoring of any 
Federal system. There are some state pre-K programs that only 
do a desktop review. And as you sort of look into how programs 
are doing in accountability, I think we need to be very careful 
in terms of young children. We don't support testing of older 
children until the third grade.
    Florida, again, has a very inappropriate provision in its 
pre-K program. It starts with very low quality pre-K, does not 
do any pre-test of children, and ties funding of pre-K programs 
to children's test results. I think we have to be very 
cautious, that is something we didn't do in Leave No Child 
Behind, as we move on. But there are accountability measures in 
Head Start and in some pre-K programs. And I don't know if Dr. 
Barnett and Dr. Clifford want to talk more about that.
    Mrs. Davis. I think more directing that, not just to Head 
Start, but I am talking about a blended system, whatever it may 
be, and how that accountability that is in Head Start is you 
see being utilized in that way? What leverage would we have as 
a Federal program in those particular states that would be 
blending those programs? What do you see happening already?
    Mr. Clifford. I will take a little stab at that. I want to 
say that I completely concur with Ms. Blank's concerns about 
the National Reporting System that Head Start uses and I am on 
the technical advisory panel for the reporting system. And I 
have expressed my concerns about the system. The problem is not 
with individual instruments in the system as much as it is with 
the way the system is designed so that it actually goes down to 
the individual site and assesses progress of children at that 
site. It puts the teachers who are doing the assessment or the 
other staff members who are doing the assessment in a bind that 
says if you tell us kids are not doing well, then we are going 
to take your money away.
    So it is going to corrupt the system itself so the system 
is not going to be an accurate reporter of how well children 
do. So let's get that out on the table.
    On the other side though, I think there are reasonable ways 
of conducting evaluations that look at child outcomes as part 
of that, that can be done using a sampling approach to look at 
children so you are not doing this with every child and with 
the teacher having to assess their own children. And so I think 
there are reasonable ways of doing that. Some of the states, a 
few of the states that have pre-K efforts are conducting 
evaluations. Georgia has been doing an evaluation for 10 years 
or more at least I know. North Carolina, we have a very 
comprehensive evaluation system for doing that. It is possible 
to put these together and have a single evaluation of all pre-K 
services and early childhood services in the state to see how 
well this system is functioning.
    And it is both at the child level but also are we providing 
the services that families need so that we should be looking at 
our ability to help people engage in the workforce effectively 
as well as how well our children are doing. It is possible to 
do that comprehensively at the state level.
    Mrs. Davis. And the best example of that that you have are 
you pointing to Georgia as a state that has a good example of 
that?
    Mr. Clifford. Georgia has done a lot. I think no state is 
adequately currently doing an entire broad thing where they are 
looking at the impact on families and the work life of families 
as well as children. They tend to focus on the children 
themselves.
    Mr. Barnett. I actually think there is a relatively simple 
formula for what an evaluation would look like. It would tell 
you who is served and how that differs under the different 
policy regimes, how they are served, what services they get, 
and it would tell you about the impacts on the children and 
families. How does this impact on children's learning and 
development. We can assess that very broadly. If we use 
sampling rather than trying to do every child, which doesn't 
make sense, sampling you can then take much more care to get 
much better measures on children and families.
    And you want to follow the money. I think it would be 
useful to the Subcommittee to have the results of the current 
Head Start outcome study. It would be nice to know what is 
happening now. It would also be good to know where the money 
goes now. I don't mean that in the sense of anybody doing 
anything wrong with it but all of Head Start, it is a Federal 
to local program. And one of the advantages of that is surely 
that they tailor things to their communities. But they also 
make individual decisions about what a director and staff 
thinks is best. How much variation is there, what could we 
learn from the variation that they have already got, and how 
might that help inform states in their work.
    One of the things that occurred to me in response to the 
Chairman's question was would it be possible to set up a system 
in which--a study in which states essentially made proposals 
about--rather than the experts from the outside coming up with 
proposals for how might states work with Head Start better, let 
states make proposals about what they would do where they have 
to make the case that this is in fact going to improve services 
for kids. It is not going to draw money out of the system.
    So from the very start the plan would have to justify that 
and then of course the evaluation tells you whether in fact it 
actually occurs. There has to be some degrees of freedom for 
states or states and Head Start jointly making these proposals 
to make some changes or we are simply assuming that whatever we 
have now is a perfect mix of services and there aren't any 
options for fixing that.
    Chairman Castle. Thank you, Mrs. Davis. Did you want to add 
something?
    Ms. Moore. I would like to, if I may, briefly.
    Chairman Castle. Thank you, Ms. Moore.
    Ms. Moore. And just to speak to what Georgia and the 
importance of I feel like how we are doing it. First of all, we 
have done a sample evaluation of the program for about 10 or 11 
years. We have done that. But the other piece of it that is 
even more important that we cannot lose is that assessment is 
important on an individual child level and for certain reasons. 
It is important to be able to identify barriers to learning and 
also to guide instruction so we can ensure the child is 
receiving the instruction they need to step up to the next 
level of learning and ability.
    But that can be done in a lot of different ways, ways as 
far as portfolio assessment, just teachers being trained on how 
to gather information about the child, not for reporting out 
information but to guide the instruction for the child to make 
sure the child gets the best services the child can receive.
    So I feel like you have to really look at assessment two 
ways. And sampling can meet that, definitely does meet that 
need because it drives policy. We have changed a lot of our 
policies in our state based on the evaluation that has been 
done. So there are different ways to look at it and be 
successful at both.
    Mrs. Davis. Thank you, I appreciate that, and I certainly 
understand that there are different ways to assess portfolios, 
et cetera, but I think sometimes we often have a lot more 
anecdotal than we have in evaluation and assessment. The 
anecdotal is important but for us to justify, what is 
frustrating I think is that sometimes we really don't have the 
tracking that we need and my interest is in looking at good 
models where there is some accountability and you can 
demonstrate that people actually act on what they know and what 
they find out through those evaluations.
    Chairman Castle. Thank you, Mrs. Davis.
    Mr. Hinojosa is recognized for 5 minutes.
    Mr. Hinojosa. Thank you, Mr. Chairman. I want to compliment 
the panelists because you all have a very good understanding of 
the programs and the difficulties and the challenges that we 
have in the reauthorization.
    I want to ask my first question to Dr. Richard Clifford, 
from North Carolina. Could you please describe how your state 
preschool program, Head Start programs and other child care 
programs are collaborating to identify and meet the needs of 
the limited English proficient children and their families? We 
refer to them as LEP students but that is of great concern to 
my congressional district, which has a very, very large migrant 
population. So I would like to see what Dr. Richard, how he 
would answer that. And, second, would like to hear from Jeff 
Alexander from Oklahoma to see how you all are handling LEP 
students.
    Mr. Clifford. I can only give you a partial answer to that. 
North Carolina certainly has this as a major concern. In the 
last decade, maybe not the most recent, but in the last 10 
years, about 3 years ago, we had the greatest increase in the 
proportion in the population of Latino, Hispanic/Latino 
children in the country, with about a 450 percent increase in 
that population over a 10-year period of time.
    So it is a major issue. I also have a son-in-law who is 
Latino, and so it is a big issue for me personally. We have 
worked hard in the state to try to bring together people across 
all of these service delivery agencies to begin focusing on 
this issue.
    But it is one that we are struggling with. The huge growth 
in the population has made it difficult for us to have enough 
staff who speaks Spanish to adequately serve the population. 
And so we need many more Spanish-speaking people.
    We have addressed this to some degree through our 
professional development system where we have tried to provide 
training for people that cuts across the agencies. This is one 
area that I think we have done a reasonably good job of making 
sure that training opportunities, in-service training 
opportunities that are available for one segment of the 
population of teachers are available to all staff across all of 
the agencies. That is our best response so far. But we have a 
long way to go. It is something we have to work on.
    Mr. Hinojosa. Thank you, I will respond to that after I 
hear from Jeff.
    Mr. Alexander. Thank you. In some of our areas where the 
migrant has come in, we don't have like a migrant program but 
in some of our areas we serve the Hispanic population or other, 
Asian, et cetera, by we applied in one area for a specific 
grant just for that, the Hispanic community because there was a 
large population in one area. That was before my time of 
becoming the assistant director in our area, but we continue to 
serve that population in that area. And it is a growing need 
and we are collaborating with the Workforce Investment Act 
Agency in our area to provide a training for our teaching staff 
specific for daily conversational Spanish because they may have 
one student in a classroom.
    Now we also are serving in the Choctaw Nation. That is 
another area in which we are working with those Nations to--in 
fact, the Choctaw Nation is now collaborating with us, they 
received a grant, if I am not mistaken, to provide the Choctaw 
language in some of our classrooms because there is that large 
variety.
    So in a variety of ways--we can address it in a variety 
ways, but we are working toward meeting that need in the state 
of Oklahoma.
    Mr. Hinojosa. I commend you for the statement you made 
earlier that 87 percent of your teachers have bachelor's 
degrees. That is outstanding and extraordinary. I want to say 
that the area that I represent is 80 percent Hispanic. We have 
over 100,000 migrant children, that is their home base where I 
was born and raised in south Texas. And so we have found ways 
in which to address the lack of what Dr. Clifford answered and 
that is lack of trained bilingual students--sorry, teachers who 
can deal with this growing population that you pointed out to 
us.
    The University of Texas at Pan American in Edinburgh, Texas 
has some of these programs and training programs. The Region 
One Education Service Center, which is part of TEA, Texas 
Education Agency, located in Edinburgh, also has this kind of a 
program. I recommend that you consider talking to them and 
seeing if maybe you all can exchange information that would 
help you.
    The time has come for us to go vote, and I am going to try 
to bring to closure my last question, which is for Ms. Blank, 
Helen Blank. You recommended that Head Start programs be more 
flexible. We know that Hispanic families and rural families do 
not have the same access to quality preschool programs as we 
have in other states. And I see that in that many of our 
teachers get paid minimum wages or slightly higher than minimum 
wage, which $5.25 is the minimum wage, so they get paid $6.25 
an hour and that doesn't compare with some of our much higher 
level quality programs. So how can we encourage or expand Head 
Start programs to better serve these populations?
    Chairman Castle. Ms. Blank, can you please--
    Ms. Blank. Be quick?
    Chairman Castle. Yes. And Mr. Hinojosa is correct, a vote 
is--
    Ms. Blank. I think we can talk about this more later. I do 
think giving Head Start programs the flexibility if you don't 
have programs in rural areas to do Head Start and they do in 
other settings if there is a child care program or if there is 
a school to provide Head Start in those settings because if you 
give parents certificates, they are not going to find the 
quality care either. On how much you pay teachers, that is the 
same issue we talked about with Congresswoman Woolsey, we have 
to find the resources and it is really essential because you 
want people to come into programs and you want them to be able 
to stay there once they get some training. And you need the 
resources to be able to do that.
    Mr. Hinojosa. Thank you, Mr. Chairman.
    Chairman Castle. Thank you, Mr. Hinojosa. Obviously, the 
votes have commenced and we all have to run over to the floor 
to do that. But I want to thank the panel for being here today. 
I will say very briefly in closing that I am still concerned 
about the collaboration issues. We are dealing with two 
different animals, I am not saying that in the negative sense 
or a pejorative sense, but obviously you have state programs 
running a lot of pre-kindergarten, kindergarten, early 
childhood programs. You have some other independent programs. 
Head Start, though, is a separate entity and in some cases 
there is resistance, in other cases there is cooperation.
    But the fact that there is not good cooperation concerns 
me. I actually agree with Ms. Woolsey in that it is a separate 
program and it is aimed at a particular segment of our 
population, I think that is very important. But I still think 
the coordination is also important. And I also agree with those 
of you who say we need more accountability as well. And that 
may be different accountability, by the way. There is maybe 
extraneous accountability going on right now to be candid.
    So I am not totally satisfied that we have answered all the 
questions yet, but it is very helpful to hear what you are 
saying. And as we get closer with the states doing more along 
the lines of early education, along with Head Start, to me that 
collaboration is more important than ever. I just hope we can 
write legislation that somehow we can all agree on, that we 
don't get into a fight over that would be helpful ultimately 
for these children who obviously need that. So that is what we 
are trying to do and where I am coming from.
    And I yield to Ms. Woolsey if she wants to say anything, 
but she looks like she wants to run and vote. So we will stand 
adjourned. And, again, we thank all of you for being here 
today.
    [Whereupon, at 12 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
